<html>
<title> - COMBATING EBOLA IN WEST AFRICA: THE INTERNATIONAL RESPONSE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                    COMBATING EBOLA IN WEST AFRICA: 
                       THE INTERNATIONAL RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 13, 2014

                               __________

                           Serial No. 113-240

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                           U.S. GOVERNMENT PUBLISHING OFFICE 

91-450 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                             
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Rajiv Shah, Administrator, U.S. Agency for 
  International Development......................................     7
The Honorable Bisa Williams, Deputy Assistant Secretary, Bureau 
  of African Affairs, U.S. Department of State...................    17
The Honorable Michael D. Lumpkin, Assistant Secretary of Defense 
  for Special Operations and Low-Intensity Conflict, U.S. 
  Department of Defense..........................................    29
Major General James Lariviere, USMC, Deputy Director for 
  Politico-Military Affairs (Africa), Joint Chiefs of Staff, U.S. 
  Department of Defense..........................................    50
Major General Nadja Y. West, USA, Joint Staff Surgeon, Joint 
  Chiefs of Staff, U.S. Department of Defense....................    51

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Rajiv Shah: Prepared statement.....................    10
The Honorable Bisa Williams: Prepared statement..................    20
The Honorable Michael D. Lumpkin: Prepared statement.............    31

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    73
Question submitted for the record to the Honorable Rajiv Shah 
  from the Honorable Ami Bera, a Representative in Congress from 
  the State of California........................................    75

 
                    COMBATING EBOLA IN WEST AFRICA: 
                       THE INTERNATIONAL RESPONSE

                              ----------                              


                      THURSDAY, NOVEMBER 13, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:11 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order. We will 
ask all the members to take their seats.
    We have had Ebola crises in the past. We have seen this 
situation in the Philippines, in Congo, Uganda, but never have 
we seen it on the scale, with the reach that this current 
epidemic has in Guinea and Liberia and in Sierra Leone. There 
are 14,000 cases on record, there are 5,000 people who have 
died, there are thousands of children at this time who have 
been orphaned, and these numbers are very shocking, and the 
numbers are growing.
    What has worked in the past to block Ebola, obviously, is 
breaking the chain of transmission. But without us doing that, 
Ebola will continue to spill across borders, and economies will 
be devastated in Africa. Governments will fail. Tens of 
thousands will die. And that is no exaggeration, and that means 
that this isn't just a problem for west Africa, but a problem 
with far-reaching health and economic and security consequences 
for the globe.
    And I would like to recognize Chairman Smith for convening 
an emergency hearing we held together during the African 
summit, African Leaders Summit in August, despite concerns by 
the administration that it would be a distraction. President 
Sirleaf, Ellen Johnson Sirleaf of Liberia, called to thank the 
committee for standing by Liberia.
    Chairman Smith, who has been working closely with our 
ranking member, Karen Bass, on that subcommittee, will convene 
a hearing next week with the key nongovernmental organizations 
engaged in the response.
    Unfortunately, we are paying the price of early failures. 
The World Health Organization, which is the U.N. agency charged 
with leading the response to health emergencies, downplayed the 
crisis. Inept country office directors ignored warnings by 
Doctors Without Borders. As a matter of fact, they wrote a 
rebuttal to the concern raised by Doctors Without Borders. They 
refused assistance early on from the Centers for Disease 
Control and from USAID, and they blocked entry for teams of 
experts. By the time that the World Health Organization finally 
sounded the alarm on August 8th, the outbreak was out of 
control.
    Of course, the United States has generously provided 
support to the WHO. This was a failure of policy, not 
resources. Our director of the Centers for Disease Control 
serves on WHO's executive board, and we need to be pushing to 
reform the organization. Improving accountability would be a 
very good place to start, and having country directors that are 
not cronies but, in fact, are ready to stand up and deal with 
the problem instead of trying to deny it, is a very good place 
to start.
    In contrast to the WHO's failures, USAID immediately 
activated a disaster assistance response team. It immediately 
got people to the region. And, today, USAID, supported by the 
Department of Defense and CDC, is leading a robust disaster 
response. As we will hear from Administrator Shah, who 
contacted myself and Mr. Engel after his trip to each of these 
countries, treatment units are being opened; lab capacity is 
being expanded; medical workers are being trained; and burial 
teams are working to reduce transmission.
    Reports from Liberia indicate that this is having an 
impact. None of this could have been done without the 
commitment and sacrifice of the brave men and women of the 
doctors and nurses and civilians, both civilian and uniformed 
personnel, in all of this who have answered the call for help.
    But we cannot afford to let up, and we cannot afford to do 
this alone. Containment will fail in the absence of a robust 
international effort. Other donors and the U.N. need to step 
up, just as we are stepping up. They need to step up 
particularly in Guinea. The WHO needs to be part of the 
solution, rather than a hindrance. And our Embassies need to 
put in place additional prudent containment measures that will 
add a layer of protection while not impeding the Ebola 
response, including the temporary suspension of visas for non-
U.S. nationals coming from the region.
    We look forward to learning more about the international 
efforts to help contain the epidemic at its source and 
evaluating the administration's request for additional 
resources in this fight to address one of the most pressing 
health emergencies of our time.
    And I now turn to our ranking member, Mr. Eliot Engel of 
New York, for any opening remarks he might have.
    Mr. Engel. Mr. Chairman, thank you for holding this 
important hearing. Let me say it was good spending time with 
you this past week.
    And to our witnesses, thank you for your service and for 
your testimony here today. I want to single out Rajiv Shah, the 
Administrator of USAID, with whom I have worked closely during 
the past several years.
    We appreciate your efforts, Administrator Shah, and the 
efforts of all the good people who are testifying here today.
    Thank you, Ambassador Williams and the others, thank you so 
much.
    Since our Africa and Global Health Subcommittee held a 
hearing on Ebola in September, the number of cases has nearly 
tripled. The World Health Organization is reporting over 14,000 
Ebola cases as of November 12, 2014, and a total of 5,147 
people have died. The United States has now seen the 
implications of this outbreak here at home. Several heroic 
healthcare workers who gave their time and skills to treat 
Ebola patients in west Africa have contracted the disease and 
have been successfully treated here in the United States. We 
are grateful for their selflessness and for their sacrifices. 
Just as the doctors volunteering to help combat Ebola overseas 
deserve our recognition, so do our health workers and border 
and transportation officials who are working tirelessly to 
prevent an outbreak in the U.S.
    As a New Yorker, let me say how proud I am of the staff of 
Bellevue Hospital and all of the New York public health 
officials who were involved in successfully treating Dr. Craig 
Spencer, who was released on Tuesday Ebola free. No matter how 
diligent we are here at home, there is always a chance of Ebola 
reaching our shores as long as the disease is thriving in west 
Africa. To prevent this from happening, we need to stamp out 
Ebola at its source. Most importantly, this Ebola outbreak is 
causing tremendous suffering. Our country has a proud tradition 
of stepping up in the event of a major crisis, and that should 
continue. That is why I support the strong commitment the U.S. 
has made to combating and eradicating this outbreak in west 
Africa.
    The United States has been a leader in the response to 
Ebola, particularly in Liberia. To date, more than $414 million 
has been disbursed. Our soldiers are building treatment 
facilities across the country, a high quality 25-bed hospital 
for healthcare workers who contract Ebola, and providing vital 
air and logistical support. The CDC has helped establish 
laboratories that reduce the time it takes to get an accurate 
diagnosis from days to mere hours. USAID is supporting more 
than 50 burial teams and more than 2,200 workers, who are doing 
vital contracting work.
    As I have said, the U.S. cannot meet this challenge alone. 
Ebola is a global challenge, requiring a global response. 
Fortunately, international efforts to control the epidemic in 
Liberia, Sierra Leone, and Guinea have increased, both in terms 
of financial support and on-the-ground assistance. Our partners 
in Europe and Asia have stepped up their commitment to the 
region. NGOs and humanitarian organizations, which shouldered 
most of the burden in fighting this epidemic for months, now 
have more robust and sustained support from donor countries.
    However, despite these positive signs, much work remains 
before this epidemic is under control, and unfortunately, the 
significant financial commitments we have already made will not 
be enough to control this outbreak, but we cannot become 
complacent. All it takes is one unmonitored and untreated Ebola 
patient to cause another flare up.
    We have all seen the emergency funding request that the 
administration sent to Congress on November 5th. Given the dire 
humanitarian impact Ebola is having on west Africa and the 
global health threat this disease poses, I strongly support 
this request. Like my colleagues, I would like to get more 
details from our witnesses: How will this funding be used? Why 
is it critical not only for the Ebola crisis but for our 
campaign to respond to emergencies globally? I hope we can shed 
a little more light on those issues, but Congress should 
quickly approve this request so that our efforts to end this 
outbreak aren't derailed due to a lack of financial resources.
    Finally, while controlling the epidemic is our first 
objective, we cannot lose sight of the fact that the three most 
heavily affected west African countries have significant long-
term needs for assistance. The World Bank estimates that the 
regional financial impact could reach $32.6 billion by the end 
of just 2015. This would be catastrophic for a region just 
getting back on its feet after a prolonged period of conflict. 
So while the international response must be swift, it must also 
be sustained.
    I also want to mention my gratitude and appreciation for 
all of our U.S. Government personnel in the region, the men and 
women who represent and support our missions abroad in west 
Africa. I thank the military who are here. This is a 
challenging time for everyone involved, and we appreciate all 
of their hard work in dealing with this crisis. I know how busy 
all of our witnesses are, and I appreciate the time that all of 
you are taking to give us this valuable update.
    So, Mr. Chairman, thank you again for convening this 
hearing and thank you to our witnesses for being here today.
    Chairman Royce. Thank you.
    And I will say to the committee, I agree with Mr. Engel's 
assessment here.
    Let's go to Chairman Chris Smith, chairman of the Africa 
Subcommittee and Global Health.
    Mr. Smith. Thank you very much, Mr. Chairman, for putting 
together this very important and timely hearing on the Ebola 
crisis, and I want to thank our distinguished witnesses for 
their extraordinary efforts to combat this disease and help the 
victims and their families.
    I especially want to thank Dr. Shah for the work the USAID 
is doing and for the interest he has taken personally, the 
leadership he has provided. It has been herculean.
    The unprecedented west African Ebola epidemic has not only 
killed more than 5,000 people with nearly 13,000 known to be 
infected, and that is probably a significant underestimation, 
it has also skewed the planning for how to deal with this 
outbreak. As we all know, in the past Ebola outbreaks have 
occurred in isolated areas that were much easier to contain. In 
this instance, the disease quickly spread from a rural area to 
an international trading center and people from Guinea, 
Liberia, and Sierra Leone took the disease home with them.
    This disease, in early stages appears to do less. It is not 
recognized as quickly than other diseases, such as malaria, 
which means initial healthcare workers have been unprepared for 
the deadly nature of the disease that they have been asked to 
treat. This has meant that too many healthcare workers, 
national and international, have been at risk in treating 
patients who themselves may not have known that they had Ebola. 
Hundreds of healthcare workers have been infected, many have 
died, including some of the top medical personnel in the three 
affected countries.
    What we found quickly was that the healthcare systems in 
these countries, despite heavy investment by the U.S. and other 
donors, remained quite weak. As it happens, these are countries 
coming out of very divisive conflicts or they experience 
serious political divisions. Consequently, citizens have not 
been widely prepared to accept recommendations from their own 
governments. For quite some time, many people in all three 
countries would not accept that the Ebola epidemic was even 
real. Even now it is believed that, despite the prevalence of 
burial teams throughout Liberia, for example, some families are 
reluctant to identify their suffering and dead loved ones for 
safe burials, which places family members at grave risk because 
they often touch the body and show great affection for the 
recently deceased. The porous borders of these countries have 
allowed people to cross between countries at will. This has led 
to problems of people obviously carrying the disease with them.
    I want to announce today the introduction of a bill. We 
have been working very closely with Chairman Royce on this as 
well as the ranking member, Karen Bass, called the Ebola 
Emergency Response Act. We have also shared it with the 
administration, trying to get a best practices bill moving that 
would affect the three countries but also the total response. 
This includes recruiting and training of healthcare personnel; 
establishing fully functional treatment centers; conducting 
education campaigns among populations in affected areas; and 
developing diagnostics, treatments, and vaccines. It confirms 
U.S. policy in the anti-Ebola fight and provides necessary 
authorities for the administration to continue or expand 
anticipated actions in this regard. The bill also encourages 
U.S. collaboration with other donors to mitigate the risk of 
economic collapse and civil unrest in the three affected 
countries. And we look forward to input from all members on 
this important bill, and again, I want to thank my friends on 
the other side of the aisle for working so closely on its 
creation.
    I yield back, and I thank you, Mr. Chairman.
    Chairman Royce. Thank you very much, Mr. Smith.
    Ranking member Karen Bass of Los Angeles, ranking member on 
this Subcommittee on Africa and Global Health, for 3 minutes.
    Ms. Bass. Thank you, Chairman Royce, Ranking Member Engel, 
and Chairman Smith, as always for your leadership on this 
important issue and for calling today's hearing. I also want to 
thank Dr. Shah and the other members of the panel today, not 
just for taking the time for your testimony but for your 
aggressive response and leadership on this issue. I look 
forward to getting updates directly from you today on how your 
agencies and organizations continue to combat this deadly 
outbreak, what trends you are seeing, both positive and 
negative, and what additional support is needed as you 
coordinate with governments of impacted countries and the 
international community.
    We all know this crisis has been the largest and most 
widespread outbreak of the disease in history, creating a great 
burden on the governments and bringing a greater awareness to 
the international community about global health security. 
Striking west Africa for the first time, Ebola quickly 
overwhelmed the extremely limited healthcare systems of these 
nations, and quickly spun out of control. Since the beginning 
of the outbreak, the United States has made a significant and 
sustained effort, and all of what we are doing was described by 
Ranking Member Engel.
    The question that I have that hopefully the panel will 
address is, with all of the infrastructure that we are putting 
in place from the treatment centers, training healthcare 
workers, burial teams, all of that, after we are past this--and 
I believe we will get past it--will any of it be left in place? 
Because I think that what we have all learned from this 
outbreak is the fact that many of the countries, the reason why 
it has been so bad is because they lacked a healthcare 
infrastructure. So do we take out of this tragedy and see an 
opportunity to begin to address this in the long term?
    I think that Ebola has shown us that this isn't about 
charity, but that a health care crisis in one part of the world 
can directly affect us. And I am also particularly concerned 
about the fragile governments and a breakdown in the rule of 
law.
    On the African side, African business leaders pledged to 
help the African Union train and deploy healthcare workers. And 
I know the African Development Bank has provided over $44 
million to date to assist the global efforts. I understand that 
more than 2,000 healthcare workers have been pledged from 
African countries to help fight the outbreak.
    I know that the administration has asked Congress for over 
$6 billion in emergency funds in order to sustain the progress 
that has been made and to ensure an end to this crisis. I 
believe that this request will expand assistance to continue to 
contain the epidemic and safeguard the American public from 
further spread of the disease.
    I look forward to your testimonies, and I am interested in 
hearing from all of you about what more Congress can do to help 
you in your efforts to combat the disease. Thank you very much. 
I yield back.
    Chairman Royce. Thank you.
    We begin this morning, our first witness will be Dr. Rajiv 
Shah. He is the 16th Administrator of the U.S. Agency for 
International Development, and previously he served as Under 
Secretary of Research, Education, and Economics at USAID and as 
chief scientist at the U.S. Department of Agriculture. And we 
welcome him back to the committee.
    Ambassador Bisa Williams is the Deputy Assistant Secretary 
of the Bureau of African Affairs, and previously she served as 
U.S. Ambassador to the Republic of Niger from 2010 to 2013.
    Mr. Michael Lumpkin is currently the Assistant Secretary of 
Defense for Special Operations and Low-Intensity Conflict. He 
previously served as Deputy Chief of Staff for Operations at 
the Department of Veterans Affairs.
    Major General James Lariviere is the Deputy Director for 
Political Military Affairs for Africa for the Joint Chiefs of 
Staff. Previously he worked on Capitol Hill as a military 
legislative assistant, a professional staff member with the 
House Armed Services Committee, and as both staff director and 
minority staff director of the House Veterans' Affairs 
Committee.
    Major General Nadja West is the Joint Staff Surgeon. She 
serves as the Chief Medical Adviser to the chairman of the 
Joint Chiefs of Staff and coordinates all issues related to 
health services, including operational medicine, force health 
protection, and readiness among the combatant commands.
    And Mr. Lumpkin will give oral testimony on behalf of the 
Department of Defense. Major General Lariviere and Major 
General West are available to answer our members' questions 
here today.
    And, without objection, the witnesses' full prepared 
statements will be made a part of the record. Members will have 
5 calendar days to submit any statements or questions or any 
extraneous material for the record.
    And so we go now to Dr. Rajiv Shah.

  STATEMENT OF THE HONORABLE RAJIV SHAH, ADMINISTRATOR, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Shah. Thank you, Chairman Royce, Ranking Member Engel, 
and members of the committee. Mr. Chairman, I want to recognize 
and thank you for your leadership on behalf of America's 
efforts to promote our national security and economic 
prosperity through developmental and humanitarian investments 
made all around the world, particularly at times of crisis and 
recognize the historic role you have played in helping support 
these efforts and reform, in particular the way we provide food 
assistance around the world.
    Thank you, Congressman Engel, for your unwavering 
leadership and support and friendship, and I value the support 
you have offered for our global health efforts in this crisis 
but also all around the world.
    And special recognition, of course for Representatives 
Smith and Bass for your extraordinary and consistent leadership 
in global health for so many years, which we draw upon now as 
we face this crisis.
    As the chairman noted, today we face the largest and most 
protracted Ebola epidemic in our history, with more than 14,000 
infected and more than 5,000 already deceased. I have had a 
chance to visit these countries and meet those who have been 
affected. And I can tell you that the most tragic part of the 
Ebola crisis is that it strikes those who offer the most care 
and the most love to those who are affected, a mother who holds 
a sick child or a son or daughter who kisses a deceased parent.
    In Guinea, Liberia, and Sierra Leone, we are facing a 
crisis of epidemic proportions, and the President has directed 
us to lead a whole-of-government response in west Africa that 
can help ensure America's security and safety from this tragic 
disease. I am proud here to be with members of our team across 
the interagency who have offered extraordinarily important 
leadership. You will hear from Assistant Secretary Lumpkin 
about the really herculean efforts the military has taken, and 
I hope he will share with you how important it has been to 
have, amongst other things, the Navy labs in place, greatly 
accelerating the time it takes to do diagnostics, from 7 or 8 
days down to 5 or 6 hours, thus allowing us to accelerate the 
performance of the response. You will hear from Deputy 
Assistant Secretary Williams about the more than $800 million 
in commitments that our State Department has helped to 
encourage from other countries so that the United States is 
not, in fact, pursuing this effort alone. And while you won't 
hear today from the Centers for Disease Control and Health and 
Human Services, I can tell you that on the ground, our teams 
operate in an absolutely integrated manner, and in fact, our 
disaster assistance response team, which is leading the effort, 
is co-led; the deputy director of that team is a member of the 
Centers for Disease Control.
    President Obama is requesting $6.18 billion in emergency 
funding to enhance our efforts to urgently address this crisis 
right now and for the coming year. These resources are 
essential to rapidly scaling up activities to control the 
outbreak at its source, to support recovery in west Africa in 
health and agriculture and food and other sectors of work to 
prevent civil unrest and governance collapse, and to strengthen 
global health security in the region, so, as we just saw 
yesterday, cases appearing in Mali don't get beyond that area 
and are effectively controlled.
    I would like to share with you just a few quick 
observations from my trip. In Liberia, I had a chance both to 
meet first responders and to see the extraordinary results of 
American investment and effort. As just one example, the 65 
burial teams that we now have up and running have tackled this 
crisis at its most aggressive point of transmission. Seventy 
percent of all cases get transmitted through the bodies and the 
handling of the bodies of the deceased. Today, more than 95 
percent of dead bodies are disposed of in a dignified manner, 
but in a safe manner with the proper burial team handling the 
disposal of that body. That is just one example, but that has 
clearly helped to bring down the number of new cases so that 
today we believe the transmission rate has been greatly reduced 
in Liberia.
    In Sierra Leone, I had a chance to visit trainers who are 
training hundreds of healthcare workers, mostly African and 
mostly local, in effective protective equipment and performance 
so they can be on the front lines of the response. Together 
with the World Health Organization and other countries, we will 
in fact train thousands of local healthcare workers who are on 
the frontline of taking on risk and who will be the legacy we 
leave behind so that there is, in fact, to answer the 
Congresswoman's question, a legacy of support for global health 
efforts throughout the region.
    And, in Guinea, although they have the fewest number of 
cases out of the three, perhaps current active cases of 500 to 
600, we are working aggressively to scale up efforts in the 
difficult to reach forest region, difficult to reach rural 
community, where most of these cases currently exist.
    Finally, I just want to highlight that in order to be 
effective in this response, we have had to do some things very 
differently across our team. First, we have had to invest in 
real innovation and science, and just in the next 2 days, we 
will be reviewing proposals for new protective suits that can 
help reduce the infection risk when health workers take them 
off and put them on because the current protective equipment is 
not designed for tropical disease control. We are sending a 
real time data team that has already gotten more than 8500 
ruggedized android devices, hand-held devices so we can get 
better real-time data on where the cases are and respond even 
more quickly and rapidly to meeting those needs. And we are 
using our efforts in agriculture and food in particular to make 
sure that the backbone of the rural economy in all three 
countries, which is agriculture based, can be up and running 
again as soon as possible, using our Feed the Future program to 
help accelerate performance in that sector.
    These efforts taken together and led by our disaster 
assistance response team leader, Bill Berger, on the ground in 
Monrovia, is making a tremendous difference at changing the 
path of this epidemic. If we continue to provide support at the 
level the President is requesting, we believe we can overcome 
this crisis by tackling it at its source.
    And I want to thank everyone on the committee for your 
ongoing support of the risks and the leadership being shown by 
our teams in country every single day. Thank you.
    Chairman Royce. Thank you, Administrator Shah.
    [The prepared statement of Mr. Shah follows:]
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. We now go to Ambassador Williams.

  STATEMENT OF THE HONORABLE BISA WILLIAMS, DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Williams. Thank you. Thank you, Chairman Royce. 
Ranking Member Engel, and distinguished members of the 
committee. I thank you for this opportunity to testify today 
regarding the Department of State's role in the U.S. whole-of-
government response to the Ebola outbreak in west Africa.
    The ongoing Ebola epidemic in west Africa has already 
resulted in over 14,000 infected and nearly 5,500 deaths. While 
Liberia, Sierra Leone, and Guinea have borne the brunt of this 
tragic epidemic, we have also seen isolated cases in Nigeria, 
Senegal, Mali, Spain, and the United States. This reminds us 
that Ebola can be a threat anywhere until we end the epidemic 
at its source in west Africa.
    The Ebola epidemic has inflicted human, economic, and 
social costs across the affected countries in west Africa and 
has stretched existing health systems to the breaking point. 
Beyond the epidemic's immediate effects, fewer children are 
being vaccinated; an increasing number of people lack adequate 
food; an increasing number of orphans require care; and 
economies have been badly damaged. All this has occurred 
against the backdrop of countries still recovering from civil 
war. In short, the Ebola epidemic is not only a health crisis; 
it is a potential global security crisis.
    The United States Government has stepped forward as a 
global leader to stamp out this scourge at its source. However, 
a challenge of this magnitude requires global cooperation. The 
Department of State therefore plays a critical role in 
mobilizing international resources and coordinating with 
partner states, regional organizations, nongovernmental 
organizations, and the United Nations to build capacity in the 
affected countries and beyond to respond to this crisis.
    In this respect, we are working particularly closely with 
Dr. David Nabarro, the U.N. Secretary General's Special Envoy 
on Ebola, and the U.N. Mission for Ebola Emergency Response or 
UNMEER to identify resource shortfalls and those international 
donors best placed to contribute needed financial support, 
manpower, and in-kind contributions. The U.N. has sounded a 
call for $1.5 billion to finance the U.N. response to the 
epidemic. And the State Department continues to conduct 
intensive bilateral and multilateral outreach to urge countries 
to contribute to the U.N. funding appeal.
    In September, we launched a broad outreach strategy at the 
U.N. General Assembly that raised global awareness of the 
emergency and emphasized the high priority the United States 
places on addressing it. In mid October, we followed up with 
targeted outreach calls from the President, Secretary Kerry, 
Secretary Burwell, CDC Director Dr. Frieden, National Security 
Adviser Rice, and U.S. Ambassador to the U.N. Power to their 
counterparts in a subset of key donor countries, and it worked. 
Since October 10th, those countries have pledged an additional 
$793.2 million to the global Ebola response in addition to 
significant nonmonetary contributions and bilateral 
contributions approaching $1 billion. Those numbers continue to 
grow.
    We are heartened by this growing support of countries 
around the globe, from tiny Timor-Leste to giant China. Despite 
these gains, we know that the fight is far from over and that 
much more must be done. As the President continues to say, we, 
the global community, need to do more and do it faster. 
Therefore, we will continue to push forward over the coming 
months. This means reinforcing our message at major 
multilateral events, including the summits of the G20, APEC, 
ASEAN, and the EAS, to drive action and seed contributions from 
a larger pool of donors. We are also looking at our partners in 
the Middle East as well as rising global economic powers, such 
as India, Indonesia, and Brazil, to do more. We are working 
with the African Union to bring their pledge of healthcare 
workers to the affected countries, matching needs on the ground 
with the skills and numbers of their volunteers. We support the 
African community's leadership in this response.
    Healthcare workers are the linchpin of the fight against 
Ebola, and recruiting these incredible heroes and removing 
disincentives for them to volunteer are a key facet of our 
outreach. So we are working with UNMEER, the World Bank, and 
our partner governments to provide the logistical support these 
volunteers require, as well as the laboratory capacity, airlift 
resources, and personal protective equipment they need to 
operate Ebola treatment units and other care centers.
    I would like to turn now to our work with the private 
sector in this response. The State Department has focused on 
three aspects of private sector mobilization, urging businesses 
to contribute their resources to the Ebola response, urging 
companies that are doing business in the region to stay, and 
engaging U.S.-based businesses to consider investing in the 
region. The State Department has collaborated with groups, such 
as the Corporate Council on Africa and the Business Council on 
International Understanding, to convene companies interested in 
providing specific in-kind donations that would benefit the 
response. These groups as well as private American medical 
institutions, such as Morehouse Medical School and the Harvard 
Medical School, are focusing not only on responding to the 
short-term needs to combat Ebola but also on providing the 
infrastructure support that we know is necessary for the long-
term economic and social recovery of the affected nations.
    One example of such collaboration is the State Department's 
partnership with the Paul G. Allen Family Foundation, which has 
not only donated $100 million to the response effort but has 
offered to pay for the manufacture of new specialized medical 
evacuation pods on behalf of the State Department.
    As another example, we are partnering with American 
technology firms to bolster information communication 
technology or ICT infrastructure in conjunction with UNMEER. 
Coordinating the response in west Africa is a massive 
logistical undertaking that requires adequate ICT to be 
successful. The efforts of the State Department and USAID in 
conveying the substantial ICT needs in affected countries have 
raised awareness of the need for better ICT infrastructure both 
to fight the Ebola virus right now and to make future disaster 
responses more effective.
    At the same time, Assistant Secretary Linda Thomas 
Greenfield has been working to keep diaspora groups informed 
and to encourage business interests in the region to stay the 
course through this current crisis. The U.S. Chamber of 
Commerce Foundation, the Corporate Council on Africa, the Ebola 
Private Sector Mobilization Group, the Business Council for 
International Understanding, and many private sector entities 
with substantial long-term business and investment presences in 
the affected regions have coordinated closely with the 
Department of State and USAID. We have advised them how they 
can not only employ their infrastructure and financial 
resources in support of this effort but also use examples of 
their positive partnership to encourage additional corporate 
engagement within their respective sectors in support of the 
Ebola response.
    As you can see, there are a multitude of actors involved in 
response efforts. As we recruit and convene them, the State 
Department is also focused on channeling their efforts to fill 
known resource gaps, which really brings us back to the U.N.
    Chairman Royce. Ambassador----
    Ambassador Williams. Oh?
    Chairman Royce. It has been like 8 minutes.
    Ambassador Williams. I am over time.
    Chairman Royce. I think what I would like to ask the 
witnesses to do is if you will just give 5 minutes of 
testimony, we have got your written report here, and we will 
have an opportunity to ask you questions afterwards. So maybe 
we should go to Mr. Lumpkin now.
    Ambassador Williams. I appreciate it. Thank you.
    Chairman Royce. Thank you, Ambassador.
    [The prepared statement of Ambassador Williams follows:]
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              


   STATEMENT OF THE HONORABLE MICHAEL D. LUMPKIN, ASSISTANT 
 SECRETARY OF DEFENSE FOR SPECIAL OPERATIONS AND LOW-INTENSITY 
              CONFLICT, U.S. DEPARTMENT OF DEFENSE

    Mr. Lumpkin. Chairman Royce, Ranking Member Engel, and 
distinguished members of the committee, thank you for the 
opportunity to testify today regarding the Department of 
Defense's role in the United States' comprehensive Ebola 
response effort, which is a national security priority in 
response to a global threat. Due to the United States 
military's unique capabilities, the Department has been called 
upon to provide interim solutions that would allow other 
departments and agencies the time necessary to expand and 
deploy their own capabilities.
    United States military efforts are also galvanizing a more 
robust and coordinated international effort, which is essential 
to contain this threat and to reduce human suffering. Before 
addressing the specific elements of DoD's Ebola response 
effort, I would like to share my observations of the evolving 
crisis and our increasing response.
    Like Administrator Shah, I recently traveled to the area 
and I was left with a number of overarching impressions that 
are shaping the Department's role in direct support of USAID.
    First, our Government has deployed a top notch team 
experienced in dealing with disasters and humanitarian 
assistance.
    Second, the Liberian Government is doing what they can with 
their very limited resources.
    Third, the international response is increasing rapidly due 
to our Government's response efforts.
    Fourth, I traveled to the region thinking we faced a health 
care crisis with a logistics challenge. In reality, we face a 
logistics crisis focused on a healthcare challenge.
    Fifth, speed and scaled response matter. Incremental 
responses will be outpaced by this dynamic epidemic.
    And, finally, the Ebola epidemic we face truly is a 
national security issue. Absent our Government's coordinated 
response in west Africa, the virus spread brings the risk of 
more cases here in the United States.
    I would like to now turn to DoD's role in our direct 
support in west Africa. In mid-September, President Obama 
ordered the Department to undertake military operations in west 
Africa in direct support of USAID. Secretary Hagel directed 
that U.S. military forces undertake a twofold mission: First, 
support USAID and the overall U.S. Government efforts; and 
second, respond to the Department of State requests for 
security or evacuation if needed.
    Direct patient care of Ebola-exposed patients in west 
Africa is not part of the DoD mission. Secretary Hagel approved 
unique military activities falling under four lines of effort: 
Command and control, logistics support, engineering support, 
and training assistance. In the last 8 weeks, DoD has 
undertaken a number of synchronized activities in support of 
these lines of effort to include designating a named operation, 
Operation United Assistance; establishing an intermediate 
staging base in Dakar, Senegal; providing strategic and 
tactical airlift; constructing the 25-bed hospital in Monrovia; 
and constructing 12 Ebola treatment units in Liberia; training 
local and third-country healthcare support personnel, enabling 
them to serve as the first responders in these Ebola treatment 
units throughout Liberia.
    In all circumstances, the protection of our personnel and 
the prevention of any additional transmission of the disease 
remain paramount planning factors. There is no higher 
operational priority than protecting our Department of Defense 
personnel.
    In addition to the activities of United Assistance, the 
Department will continue to support the Liberian Armed Forces 
through Operation Onward Liberty and expand the regional 
efforts of DoD's cooperative biological engagement program. DoD 
has also increased support to the Department of Health and 
Human Services and the Department of Homeland Security, the 
lead agencies for Ebola response here in the United States, by 
activating a medical support team that can rapidly augment the 
Centers for Disease Control and Prevention and capabilities 
anywhere within the country in a 72-hour notice.
    In conclusion, we have a comprehensive U.S. Government 
response and increasingly a coordinated international response. 
The Department of Defense's interim measures are an essential 
element of the U.S. response to lay the necessary groundwork 
for the international community to mobilize its response 
efforts, and as mentioned earlier by the chairman, I am joined 
by Major General Jim Lariviere and Major General Nadja West 
from the Joint Staff, and we look forward to your questions. 
Thank you.
    Chairman Royce. Thank you.
    [The prepared statement of Mr. Lumpkin follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Let me ask some questions here, and if I 
could start, maybe I will ask this of you, Administrator Shah. 
In the early days of the response, the World Health 
Organization really I think failed their donors and failed the 
people of west Africa, but as I went down those arguments that 
we heard coming out of the region, that these were politically 
appointed country directors, and they were downplaying the 
crisis. They had warnings from credible organizations, and they 
ignored them. They failed to submit reports back to 
headquarters in Geneva. They obstructed travel by experts, and 
they resisted offers of assistance from the Centers for Disease 
Control as well as from USAID. And you add to that that it was 
the WHO guidelines on prevention and containment, which our own 
CDC clung to for far too long in my opinion that proved wholly 
inadequate. So, today, the WHO continues to serve as the lead 
agency in the U.N.'s Mission for Ebola Emergency Response, and 
the administration is seeking more funds for the WHO.
    We understand the funds for tackling this problem, but 
without reform at the WHO, I would just ask, do you have 
confidence that they are up to the task here, if they are going 
to be the lead organization? And how has the WHO corrected 
course over the past several weeks? Are they making changes, 
especially considering the situation you had on the ground 
there?
    Mr. Shah. Thank you, Mr. Chairman. I think the most 
important response to your question is that, yes, there have 
been very significant changes made at WHO to the quality, the 
personnel, and the focus on this response. That is true in all 
three countries. Part of my assessment and my trip was to 
assess all of our United Nations partners. Most of the 
investment reflected in the request are personnel, logistics, 
commodity purchase, like protective equipment, and 
distribution. Those main cost drivers will end up being 
deployed by partners like the World Food Programme that 
actually manage the logistics response over the medium to long 
term in the region.
    WHO plays a critical role on technical issues, on training 
support, in some cases running Ebola treatment units, and they 
are working with our NGO partners, like the International 
Medical Corps, Mercy Corps, Save the Children, and others to 
execute that function. So they play an essential role. We have 
worked hard with them to scale up their capacity, and right 
now, we need them to perform. And we are going to help them 
perform, and we are going to measure results. And when we have 
challenges, I am on the phone with my counterpart, the director 
general there, very often in order to make sure we have an open 
line of communication about what has to be done to succeed.
    Chairman Royce. Well, the argument that I understand is 
that they have the experience, but the people at the helm, the 
country director for Guinea, the outgoing regional director for 
Africa in particular demonstrated deadly incompetence in this 
situation. So the United States is on the executive board. We 
should figure out a way to reform the personnel process so that 
cronyism at the U.N. isn't a big part of the problem and, at 
the same time, perhaps figure out a way to have them bring more 
doctors and personnel and experts around the globe into this 
region, into west Africa to confront the crisis. And I would 
just ask you about that besides management reform. Can we push 
for such a directive?
    Mr. Shah. Well, thank you for the suggestion. I think we 
will take both of those suggestions on board. The new executive 
director from the United States is Dr. Tom Frieden to the WHO. 
He is very focused on those and other issues, and right now, 
you are right to point out that the World Health Organization 
is leading the mobilization of international medical support 
for this mission overall, and your points are well taken, and 
they are important, and we will continue to push to make sure 
that function is implemented well.
    Chairman Royce. Thank you, Dr. Shah.
    Another thought we had was that we have, you know, with 
UNMIL's role, you have 6,000 U.N. peacekeepers deployed in 
Liberia, and their mandate there is to solidify peace and 
stability. And prior to this outbreak, they were winding down. 
But what role is UNMIL playing in the Ebola crisis, and does it 
have the engineering capabilities there to play a role? The 
mission's U.N. mandate will be renewed again I think in 
December. Will we see any changes in the mandate? Are any 
needed with respect to addressing this challenge?
    Mr. Shah. I will just say, you know, keeping UNMIL both 
together, well-resourced, and operationally contributing to the 
response has been a major priority. When Ambassador Power made 
her trip, that was a point that she really drilled down on. We 
do believe they have important assets that include logistics 
support, helicopter lift, some degree of engineering. They are 
working with the main United Nations logistics provider, which 
in this case is the World Food Programme, to scale up their 
contribution to the Ebola response, and we are very hopeful 
that all of UNMIL's contributing partners will maintain a 
commitment to keep that entity going and strong into the 
future.
    Chairman Royce. And, lastly, Dr. Shah, you spoke of the 
supplemental request, but leaving the question of resources 
aside for a minute, and I am supportive on that, are there any 
additional legal authorities that would improve USAID's 
mission, and do you have all the authorities you need? What 
should we do legislatively in terms of policy that would 
strengthen your ability to tackle this challenge?
    Mr. Shah. Well, thank you, Mr. Chairman. I think there are, 
in addition to the resources identified in the request, a few 
specific congressional authorities that we would seek. One is 
the broad transfer authority that would give us the flexibility 
to use funds across various foreign assistance accounts as 
needed over the course of the year. This will allow us to, if 
the, you know, if the crisis moves to Mali and we need to be 
responsive there, it allows us to be responsive. This would 
allow us if the crisis is more intensely on food security and 
governance and the number of new cases is down, it will allow 
us to make balanced and appropriate judgments and transitions.
    Second, the notwithstanding authority for economic support 
funds in this context will allow us to move fast and 
effectively, and so we request that.
    And the two priorities, sir, that you have been a champion 
for in food security around continuing to, you know, allow us 
to have more flexibility to do what saves the most lives most 
efficiently and to promote agricultural investments through 
Feed the Future will also be helpful, and I know those are in a 
separate process, but I very much value your leadership and the 
committee's support in those areas where we have proven that 
these investments can deliver the kinds of results that then 
avoid these crises in the future, which ought to be our goal.
    Chairman Royce. Thank you, Dr. Shah.
    We go to Mr. Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman.
    For the first question, I would like to ask a quick 
question to Administrator Shaw. As I mentioned in my opening 
statement, I am very pleased to see that the administration has 
required additional funds to fight this epidemic. Could you 
please explain to us how fast you are drawing down existing 
funds, and if Congress fails to approve this budget request in 
a timely manner, at what point will we lack appropriate 
resources for the response?
    Mr. Shah. We are drawing down funds faster than I have ever 
seen us do, and we have had to do that because we know that 
resources spent now will avoid the kind of catastrophic case 
numbers that would require far higher resource levels in the 
future. In just the last few months and going into at the end 
of the year, USAID alone from its disaster assistance account 
will expend nearly $500 million. To put that in perspective, 
the entire annual budget of the disaster assistance, or IDA, 
account, is $1.1 billion. Right now, we are dealing with 
massive crises. We are averting a famine in South Sudan. We are 
supporting 7 million people in Syria and in neighboring 
countries. We are dealing with an upcoming winter in 
Afghanistan, where I was just a few days ago, and we are not 
going to be able to sustain this effort unless we have relief 
on the resources.
    So thank you for your question, sir.
    Mr. Engel. Thank you very much.
    It was very encouraging to see that Africa's most populated 
country, Nigeria, was successful in containing the recent 
outbreak of Ebola.
    Administrator, could you describe how our foreign 
assistance programs, particularly those focused on health, have 
helped to contain Ebola in Nigeria. And tell us what lessons we 
can learn from their success.
    Mr. Shah. Well, sir, I think your championing, global 
health investments at USAID and the PEPFAR program have helped, 
especially in Nigeria, create the capacity to be responsive. In 
this case, there were a few cases. They quickly spread. I think 
there were 18 total cases. They had to do almost 18,000 contact 
tracing activities to make sure that they could identify all of 
the people who would potentially be affected in Port Harcourt. 
They were able to quarantine I think more than 80 individuals 
through the period and, through that very effective response, 
were able to eliminate Ebola from Nigeria, which as you know if 
it took off in some of the urban settings there, we would be 
looking at an even more catastrophic situation.
    So our ability to continue to make the investments that we 
have made over the past several years to build health systems, 
to train health workers, to make sure that their medical 
supplies--they have basic supplies for oral rehydration and 
malaria control and those types of efforts, make a huge 
difference in preparedness. They made a difference in Nigeria. 
They make a huge difference in East Africa, which we are not 
talking about because of the effectiveness of those existing 
investments. And I want to thank you and other members of the 
committee for ongoing support for these global health programs.
    Mr. Engel. Thank you.
    I want to raise an issue that is bound to be raised by 
others here and that we have heard being raised time and time 
again since we have had the outbreak of the Ebola crisis. And 
that is travel bans. There has been a great deal of discussion 
obviously relating to implementing travel bans or visa bans 
from west African countries being impacted by the Ebola 
outbreak. Several Governors, including in my home State of New 
York, have instituted a mandatory 21-day quarantine period for 
individuals returning from west Africa. I understand there is a 
desire to obviously protect Americans from Ebola, and I want to 
do everything I can to ensure that my constituents are not 
exposed to the virus, but I want to know what is really 
happening.
    So can you tell me what the impact would be on the Ebola 
response if travel bans, visa bans, or a mandatory quarantine 
period were to be instituted? And what do you believe should 
Congress be doing to best protect Americans? I don't know who 
would like to take that. Administrator or Ambassador?
    Mr. Shah. I can start, and then I will ask Ambassador 
Williams to add to this. The President has been very clear that 
keeping Americans safe is our top priority, and the only way we 
will do that is tackling this challenge at its source where 
there have been more than 13,000 cases. We as a team have 
looked very carefully across a broad range of options and 
ultimately have determined that a science-based approach to 
making decisions would allow us to mount the most effective 
response and keep Americans safe.
    When we saw the actions taken in New Jersey in particular, 
for example, a number of USAID implementing partners 
immediately had to withdraw their proposals and say instead of 
building or staffing two or three Ebola treatment units, we can 
only do one because so many doctors have backed out of going 
because understandably if they don't know what the situation is 
going to be like when they return, it is hard to make that 
commitment.
    I and Ambassador Williams and others have spoken to a lot 
of our international partners, and I think we are convinced 
that America is the signal decision maker. If we isolate these 
countries, the rest of the world will isolate these countries. 
And that will create a much different epidemic curve, and we 
will all have to come back here and discuss how are we going to 
handle many, many, many additional cases than what we are 
looking at now.
    The Ambassador may want to add to that.
    Ambassador Williams. Thank you, Mr. Engel, for also raising 
this. This is an issue that has been under discussion for quite 
a while, and it is really, really important that we put these 
things in context. What we are really talking about when you 
talk about a travel ban, that would mean people are thinking 
about banning flights and banning persons. In fact, there are 
no direct flights from the affected countries to the United 
States, first of all. So we are really then talking about 
banning people who come through a visa, through a visa process, 
more than banning actual flights. And the data shows that 
basically 60 percent of the persons entering the United States 
from that region, from the region, are either U.S. citizens or 
they are green card holders. They are lawfully permanent 
residents. So now we are looking at a 30 percent portion.
    If we ban a visa, our experience shows that preventing 
access, legal access, really forces people to choose illegal 
methods. And once you do that, you are then losing the ability 
to use all the protocols that we have in place that we know 
work. How do you trace people? Where are people going? What is 
the contact information? How do you monitor? So one of the 
reasons that we are really urging that there be no 
implementation of any kind of a visa ban or travel ban is that 
we want to know where people are going. First of all, we are 
talking about a relatively small number of people, and we are 
talking about implementing the strategies that we know work.
    The other aspect of getting the actual healthcare 
professionals to the region, getting the ability for pilots to 
be able to transport, to be able to get supplies and healthcare 
workers in and out of the region, all those kinds of things are 
impacted by a notion of denying access or denying visas to 
travelers. So what we have tried to emphasize is that we need 
to keep the science first and foremost, and we need to watch 
and see what is working, and so far, our strategies have been 
working.
    The other thing that would happen, we are trying not to 
isolate. We talked about the secondary effects of this crisis, 
and there are deep economic effects. So we are trying to use a 
strategy that helps us to, first of all, stop the spread of 
this disease and also reinforces the capacities of the people 
in those places to be able to respond to the spread of the 
disease.
    Mr. Engel. Thank you.
    Ms. Ros-Lehtinen [presiding]. Thank you so much, Mr. Engel.
    The Chair recognizes herself.
    Thank you, ladies and gentlemen.
    Last year, State and USAID spent more than $52 million on 
global health efforts in Liberia, Sierra Leone, and Guinea 
combined, but I know, in my constituency, they ask where did 
all that money go? It has become apparent that these countries 
did not have the healthcare infrastructure in place to handle 
or contain the Ebola disease. And as we have seen, it can 
spread to Europe and North America. And with the communist 
dictatorship in Cuba sending hundreds of forced labor 
healthcare workers to Ebola-impacted countries, we have got to 
ensure here in the United States that we are taking every 
possible precaution. It is appalling that the Obama 
administration officials are praising the Castro communist 
dictators for forcing these workers, forcing them, to go to 
Ebola-impacted countries in Africa. These healthcare officials 
do not have a choice. Their families face retaliation on the 
island if they don't go. They are forced to go as part of a 
coordinated PR campaign orchestrated by the regime for its own 
political agenda, and it is disgusting and shameful that we 
should be congratulating Cuba for forcing people to go to these 
countries and ask the regime what happens to those workers if 
they are found to be impacted with Ebola. They are not allowed 
to go back to Cuba.
    Here are some facts about Cuba and its healthcare 
apparatus. In the 1980s, that same Cuban regime, the same 
people, sent HIV positive patients to concentration camps. The 
regime has taken out life insurance policies on behalf of its 
workers, but instead of naming the families as beneficiaries, 
any insurance dollars right now go to the regime. The regime is 
not exporting its workers for free. It receives approximately 
$8 billion per year that it uses to oppress the Cuban people. 
Cuban healthcare workers receive less than 25 percent of the 
money from donors that is supposed to pay for their salary. The 
rest is confiscated by the regime.
    Finally, Dr. Shaw, I have a question for you staying on the 
subject of Cuba because, earlier this year, in April, you 
testified before this committee, and I asked you if USAID will 
remain committed to reaching out to people suffering under 
closed societies and dictatorships. Your answer was yes. And, 
in September, President Obama spoke at the Clinton Global 
Initiative and stated that the administration ``will oppose 
attempts by foreign governments to dictate the nature of our 
assistance to civil society and oppose efforts by foreign 
governments to restrict freedom of peaceful assembly and 
association and expression.'' That is a good quote.
    Yet, this week, there is a column in the Associated Press 
that says everything to the contrary. According to news 
reports, USAID is planning on rolling out new regulations that 
seek to prohibit USAID from working in closed societies. By 
coincidence, it seems that the new regulations are in line with 
a certain Senator who has been pushing to normalize relations 
with Communist Cuba, and these attempts by Castro apologists 
may be a backdoor deal to secure the release of Alan Gross. I 
certainly hope not because Alan Gross is innocent and should be 
released immediately, unconditionally, without concessions to 
the tyrants who have held him unjustly for over 5 years.
    So, Dr. Shaw, is it true that USAID would consider dropping 
programs wherever USAID was denounced? And if true, it would 
only benefit thugs like the Castro brothers and Nicolas Maduro, 
Rafael Correa. They will use this as an opportunity to gloat 
that they got USAID to cave and run away from its mission. Why 
is USAID calling and running away from democracy programs in 
Cuba and Venezuela and Ecuador, Iran, and Russia? And if not, 
will you come out and set the record straight, Dr. Shah?
    Mr. Shah. Certainly. Thank you, Madam Chairwoman.
    And I just want to highlight, I do want to stay focused on 
Ebola in this context, but I can assure you that I am standing 
by the answer I gave you previously, that we are going to 
continue to work in difficult environments on democratic 
governance programs as we have for years. The framework to 
which the article refers is one that we are eager to discuss, I 
know have been discussing with your team, and I am eager to 
discuss in more detail with you. I do not in any way believe it 
diminishes our commitment to that objective, and I can discuss 
how it is being implemented in that context. I appreciate your 
comments about Alan Gross. And as you know, we work continually 
on behalf of articulating why he should be released through our 
colleagues in the State Department.
    I would like to just make reference previously to your 
comment about the $52 million spent in Liberia, Sierra Leone, 
and Guinea on health. It is quite worth noting that over the 
last 5 years in all three countries we have seen rapid 
reductions in child mortality and maternal mortality because 
primarily of expanded access to bed nets for children who would 
otherwise get malaria. Those reductions have saved a lot of 
child lives. And, in fact, just over the last 8 weeks we have 
had a massive bed net distribution throughout the region 
because malaria patients present with the same symptoms as 
Ebola--fever, nausea, vomiting--and so we want to make sure we 
keep that under control as we are tackling Ebola.
    Ms. Ros-Lehtinen. Thank you, Dr. Shah.
    Mr. Shah. One thing I will say, what did happen is the 
healthcare workers got infected early in this response. And 
that did decimate their healthcare systems, and that is why I 
think we are dealing with a much more complex situation than we 
otherwise would.
    Ms. Ros-Lehtinen. I appreciate your answers.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairwoman.
    Mr. Shah, the President appointed a Ebola czar, Ron Klain. 
What is your relationship, and Ambassador Williams, what is 
your relationship to that Ebola czar?
    Mr. Shah. Ron Klain has come into the administration and is 
carrying out the function of coordinating policy and oversight 
of a very complex domestic and international Ebola response. I 
talk to Ron almost daily, and we are in meetings together quite 
often. I think he has done a very effective job of helping the 
President frame decisions and gather the right data and make 
the right calls over the last--since he has joined, and I know 
that it is a difficult task, and we are trying to do everything 
we can to support him in a very important role.
    Ambassador Williams. Thank you. I, too, have spoken with 
Mr. Klain. I spoke to him actually just yesterday. His role is, 
as Raj just explained, coordinating the overall U.S. Government 
interagency interaction while we do the implementing.
    Mr. Connolly. Is there a need for coordination, 
coordination that apparently was not occurring before Mr. 
Klain's appointment?
    Ambassador Williams. Our view is there is a need for the 
kind of overseeing coordination that he is providing because 
this emergency has so many moving aspects to it. It is really a 
whole-of-government operation. We are used to in the 
interagency context to meeting together, talking together, and 
focusing on accomplishing our mission. But we are finding the 
logistical challenges, the health challenges, and the secondary 
and third, tertiary effects of this really are quite complex. 
And so I welcome the insurance that he is giving by making sure 
all these little pieces are really talking. I can focus on my 
aspects at State. But it redounds to others. So, yes, I think 
it is necessary.
    Mr. Connolly. The chairman provided a pretty devastating 
critique of WHO in the early stages of the crisis, in terms of 
both their competence, their timeliness and an organization he 
characterized as rampant with cronyism. Do you agree with that 
critique, Mr. Shah?
    Mr. Shah. You know, I have been very focused on ensuring 
WHO has the right people, processes, and resources to carry out 
a function we need them to carry out in the region right now. I 
can tell you on my visit, I spent time with all of their local 
staff in all three countries, and I was impressed with--these 
were technical people, very sophisticated, helping to train 
hundreds of local healthcare workers on how to use protective 
equipment, how to carry out their function. I do believe there 
is going to be room after this to look back and make reforms as 
to how WHO can be more effective connecting its leadership in 
Geneva to its on-the-ground eyes and ears and capabilities. And 
I think there will be time for that, but right now, my focus is 
making sure we have the right WHO folks in country, they are 
carrying out their function, working in a team with us and 
others. And it is working statistically and we are seeing some 
results.
    Mr. Connolly. Do we have the right folks on the ground?
    Mr. Shah. I wish we had more of their capacity to have 
trainers and disease control experts there. I have communicated 
that to Margaret Chan, who leads WHO, and we are in constant 
communication with. Yes, now, I think you are looking at a 
substantively improved WHO response in all three countries.
    Mr. Connolly. Well, it just seems to me--I can appreciate 
your diplomatic answer, and there will be time after the crisis 
to try to improve WHO, but if the chairman is right in his 
critique, we have no reason to be confident in WHO. In fact, 
WHO contributed to the spread of this virus and to a high 
mortality rate, frankly, because of its incompetence and 
cronyism and its lack of focus and its lack of timeliness.
    There is a big difference between we can tweak it to make 
it better and more effective, and it is incompetent to begin 
with and simply collapsed in the face of this pressing crisis. 
And it seems to me the American people and the Congress are 
entitled to know the difference here, Mr. Shah.
    Mr. Shah. We are, in the first instance, the focus for us 
is making sure that they have the right talent, focus and 
process, and I can assure you they do now in these three 
countries. I have learned that that institution ought to have 
some additional capabilities and more connectivity in terms of 
command and control. Those were some of the missing early 
elements that the United States stepped in to provide. And I 
know as Dr. Frieden and others take forward a process of 
reform, they will focus on those items.
    Mr. Connolly. Well, I would just end by, again, I think it 
is a fairly dispositive issue. If WHO is going to be the 
primary international agency with which we need to partner in 
this kind of crisis, which will not be unique--there will be 
others--we have got to have confidence that that international 
partner is competent and has the resources and the talent to 
respond in a robust and timely manner. Otherwise, lives are 
lost. And, furthermore, we start from way behind where we 
needed to in trying to catch up and get ahead of the curve of 
this terrible disease. So I look forward to hearing a lot more 
about it later on.
    Thank you, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    I am honored to recognize Mr. Smith of New Jersey, a 
champion on all of the issues of the subcommittee that he 
chairs. He is chairman of the Africa, Global Health, Global 
Human Rights, and International Organizations Subcommittee.
    Mr. Chris Smith.
    Mr. Smith. I thank my good friend and the distinguished 
chair for yielding. Thanks again to our distinguished witnesses 
for your past and ongoing leadership. In response, and it has 
been mentioned before but it bears underscoring, to the Ebola 
outbreak, in March, the World Health Organization fewer than 
200 people were infected and that approximately $5 million was 
needed to contain it. However on October 17, Maria Cheng of the 
Associated Press wrote a story, headlined ``U.N.: We botched 
the response to Ebola outbreak,'' and cited a report that 
blamed incompetent staff and quoted Dr. Peter Piot, one of the 
co-discoverers of the Ebola virus, who said that the regional 
office in Africa is ``really not competent.'' Now, in light of 
that, what role is UNMEER actually playing on the ground? We 
know about WHO, what they are doing now, but what is UNMEER 
doing, again, another U.N. initiative?
    Secondly, Dr. Frieden testified at my emergency 
subcommittee hearing on August 7 and laid out the prudent steps 
that were being taken to detect and to try to mitigate this 
crisis. When we had the second hearing on September 17, Dr. 
Fauci said that now this terrible disease had gone exponential. 
He said in public health, when you put incremental against 
exponential, exponential always wins. Nobody on the panel has 
used the word exponential. And I wonder if you could update the 
committee on what has happened, what have been the game 
changers, and what are we talking about in terms of numbers, 
immediate, intermediate, and long term in terms of and 
projected number of cases of Ebola?
    Thirdly, Dr. Brantly testified at our September 17 hearing 
and talked about home isolation. And thankfully, the military 
is doing a yeoman's work in building up isolation and treatment 
units; 1,700 I believe are contemplated. But he pointed out 
that family members and sometimes neighbors are caring for 
these sick individuals at home and therefore contracting the 
disease themselves. We now have to look at interventions that 
involve educating and equipping these homes and caregivers for 
their own protection, and he talked about the safety measures. 
Are we training home healthcare workers to help their loved 
ones so, one, they do help their loved ones but also so they, 
too, don't get sick?
    General, if you could touch on the issue of protecting our 
servicemembers. What kind of protective measures are in place? 
Are they adequate to the task?
    You talked about labs, Dr. Shah. What is the goal in the 
labs? Where are we now in terms of the goal capability? Good 
news about the 5 to 7 hours, but what is the endgame and how 
much lab capacity are we looking to establish? I have other 
questions, but time probably doesn't permit. On the quarantine 
issue, where are we on quarantine? We know the military talks 
21 days. Is that still the situation? What is the quarantine 
issue as you see it today if somebody is in west Africa?
    Mr. Shah. Okay. I will start very briefly, and thank you, 
Chairman Smith, for your just unwavering support for global 
health over decades. We are proud to be associated with your 
work.
    First, on UNMEER, I would note that I think the U.N. in 
recognition of its need to improve operational performance on 
the ground, created this mission, resourced it, put Tony 
Banbury, a former Department of Defense emergency response 
official, in charge in Accra, Ghana, and has--in fact, since 
then, we have seen improvements in how UNICEF, the World Health 
Organization, and the World Food Programme, have organized 
themselves to do the logistics and operations of this response 
in those three countries. So that is on UNMEER.
    On data and exponential versus incremental, I think our 
concern is always exponential growth. And what we now see 
throughout the region is about 3,000 current active cases, 
roughly evenly split across with 1,300 to 1,500 in each, 
depending on the numbers, in Liberia and Sierra Leone and with 
a few hundred in Guinea. Our concern is--we have seen a big 
reduction driven, as I mentioned, by burial teams, community 
behavior change, the fact that people are bumping elbows 
instead of shaking hands, and washing their hands with 
chlorine. And because we have built out already more than 
doubling the capacity of Ebola treatment units so that we have 
enough capacity now in places like Monrovia.
    The reality though is we are now seeing micro epidemics 
throughout the countryside, and any one of those could become 
exponential if we don't have an adaptable and flexible 
response, which this funding request and our strategy going 
forward will support. And that then addresses your question 
about home healthcare workers and the lab end game. The 
strategy really is evolving to focus on rapid response 
capabilities, so when you see that there is a case in a rural 
community, you can quickly get there with lab support, with 
personnel, with protective equipment, the ability to quickly 
set up a community care center or mini ETU that might be 5 to 
10 beds and deal with that cluster before it gets to be an 
exponential problem. And if we are effective at doing that, we 
will avoid the consequences of exponential growth that Dr. 
Fauci has spoken about.
    Mr. Lumpkin. If I may, before I turn it over to General 
Lariviere here, just to reemphasize the protection of DoD 
personnel is our number one priority as we are continuing to 
support USAID in west Africa. So we have a robust training 
program for our service members and DoD civilians prior to 
going over to the region to serve. We have a very thorough 
monitoring program while they are there, and then we have a 
controlled monitoring program when they redeploy back to the 
United States or their home station.
    And as you are aware, the service chiefs as well as the 
Chairman of the Joint Chiefs of Staff made a recommendation to 
Secretary Hagel to support a 21-day controlled monitoring 
quarantine-like situation upon return. The Secretary approved 
that because of the unique nature of the military, the scope 
and the size of our footprint over there, and the operational 
needs on howreintegrate our forces back into home station. So I 
will turn it over to General Lariviere, who can answer the 
specifics.
    General Lariviere. Thank you, sir.
    Mr. Smith, as Mr. Lumpkin said, we are taking measures in 
all phases of the operation, pre-deployment, during deployment 
and post-deployment. Before deployment, all personnel will 
receive a medical threat briefing covering all health threats 
and measures. In addition, they will receive special training 
on the EVD safety precautions, prevention and protection 
measures, personal protective equipment use, symptom 
recognition and monitoring. As Mr. Lumpkin said, they will be 
monitored continually throughout the deployment with their 
temperature taken twice a day and obviously with medical checks 
throughout.
    Upon redeployment, as was also mentioned because of the 
special nature of the military's deployment, the use of our 
population, et cetera, on the recommendations of the Joint 
Chiefs, the chairman did recommend to the staff that personnel 
be put in controlled monitoring once they return. So, again, we 
are taking measures throughout the deployment to ensure the 
safety of our troops.
    Mr. Lumpkin. If I may add one more piece. Please keep in 
mind again DoD personnel are not doing direct patient care.
    Ambassador Williams. And for personnel that are under 
chief-of-mission authority at our Embassy services in the 
affected areas, we are following the CDC guidelines and the 
regular protocol. Our people are going to be screened before 
they depart post. They will be screened at whatever is the 
transit point, and they will be screened again upon entry to 
the United States. And then, unless the State where they are 
going has a specific protocol, they will be following the 
health authorities' protocols, which will self-monitoring and 
temperature checks twice a day. This is in close coordination 
between MED at State Department and MED's coordination with 
whatever is the home state of our transferring personnel.
    Ms. Ros-Lehtinen. Thank you.
    And, Mr. Smith, the chair allowed you great latitude 
because it is within your jurisdiction. Thank you, Mr. Smith.
    I am now pleased to yield to Mr. Brad Sherman, ranking 
member of the Subcommittee on Terrorism, Nonproliferation, and 
Trade.
    Mr. Sherman. Ebola is a great issue, not only for 
development in Africa, but for the American people. It sweeps 
across Africa. Then, every week, someone with Ebola will come 
into the United States if this becomes an endemic problem not 
only for three African countries but for all African countries. 
And it would be a challenge for our public health system if, 
every week, someone arrives in the United States with Ebola.
    With that in mind, I will ask each person on the panel what 
do you need from Congress? What can we do to help? I will start 
with Major General West and go straight down.
    General West. Thank you, sir, for that question. I 
appreciate the support that DoD has been given and continues to 
be given from committees such as this and from the general 
support in general. But, again, I believe DoD and, with Mr. 
Lumpkin as our lead, we have been given the resources that we 
need. So I think for now we have got the resources that we need 
to accomplish our mission. Thank you.
    Mr. Sherman. I don't know if I need to hear from the rest 
of DoD if you pretty much match--Mr. Lumpkin?
    Mr. Lumpkin. I would offer that the emergency funding 
request is what we need. There is a portion of that that is a 
DoD request for $112 million to do advance vaccine research for 
DARPA. That would be working in conjunction with NIH and the 
Defense Threat Reduction Agency. So that would be helpful, but 
I think across the whole of government, that emergency funding 
request is phenomenal.
    Mr. Sherman. Ambassador, anything to add?
    Ambassador Williams. I, too, was going to say we really 
need the funding of the emergency supplemental request. Part of 
that for the State Department is going to be focused on the 
immediate response but also for building up our capacity within 
MED to be able to effect evacuations and respond to the health 
emergencies, repatriation of people. So, yes, we need funding 
of this. It is all explained in our request.
    Mr. Sherman. Mr. Shah?
    Mr. Shah. Thank you. I would highlight three things. First 
is the $6.2 billion resource request, which I would point out, 
while Ebola is far more complex and our responsibilities to 
respond in west Africa are far more significant than what 
previously took place with H1N1 or H5N1, this request is geared 
to be roughly at the same level as Congress provided in 2006 
and 2009 in those contexts. So we really do require these 
resources to be successful, and, frankly, we will not succeed 
without them.
    Second, there are specific authorities, including the 
transfer authority and the notwithstanding authority, in the 
request that I think are absolutely essential. Because this is 
a fast-moving and adaptable viral epidemic, we need to be fast-
moving and adaptable in our response. It will ultimately save 
money, time, lives, and threat.
    And then, third and finally, this committee and your 
leadership has helped us establish a much more robust effort to 
food, agriculture, and avoiding hunger. And the number one 
nonhealth consequence of this challenge is going to be a 
widespread food crisis in this region. Any support the 
committee can offer for Feed the Future legislation and efforts 
to reform the way we provide food assistance is much 
appreciated.
    Mr. Sherman. Let me get to one more question. And that is, 
Administrator Shah, have we or our partners produced a video in 
all relevant languages that will explain to healthcare workers 
how to put on and take off the suits, perhaps other important 
points for Ebola health corps workers, given the fact that a 
very significant portion of those getting the disease are the 
healthcare workers? And, again, is that video available in all 
relevant languages? And have we deployed the hardware so that 
we can show this? No use having a disk if you don't have a DVR, 
et cetera, or an iPad or whatever. Go ahead.
    Mr. Shah. Thank you, Congressman. I think that is an 
excellent suggestion. I know there are videos. I don't know if 
they are in all relevant languages. I will say that, in all 
three countries now, there are large-scale training programs, 
and I want to commend the Department of Defense for using its 
program of instruction to help create a protocol for training 
healthcare workers. And I think 70 of the first trained workers 
have come out of that system in Liberia, and it just shows the 
interagency cooperation. But that is an outstanding 
recommendation that we will take back and share with our 
colleagues.
    Mr. Sherman. Because I believe it is like one-fifth of 
those with Ebola are the healthcare workers themselves. I have 
never seen a disease that had that configuration.
    Mr. Shah. That percentage is now coming down, and the rate 
of infection for healthcare workers in part because this 
response has focused on effective training is coming down 
significantly, but it is absolutely a concern that we are 
focused on.
    Mr. Sherman. I yield back.
    Mr. Poe [presiding]. The Chair recognizes himself for 5 
minutes.
    Thank you, you all for being here. It is always great to 
see you.
    Administrator Shah, again, who is in charge of this Ebola 
epidemic in the United States? Who is the main person that is 
in charge?
    Mr. Shah. Ron Klain is the Ebola coordinator and brings all 
of us together. Each agency has its own discrete 
responsibility.
    Mr. Poe. But he is in charge? All these other agencies 
which you all are sum of. Is that a fair statement?
    Mr. Shah. I think that is a fair statement. If you need an 
answer to a question, Ron is a good source to go to.
    Mr. Poe. He was asked to be here today. And he is not here. 
But you are here, so I can't ask him those questions. He did 
say yesterday on MSNBC--I mean, he doesn't come to Capitol 
Hill, but he did say that there will be more Ebola cases in the 
United States.
    I will ask, General West, since you are a medical doctor, 
do you agree with that statement?
    General West. Sir, thank you for the question. Sir, I 
believe there is always a potential that an additional case 
might enter the United States, so I think his comment was based 
upon the fact that we have already had one gentleman, Mr. 
Duncan, who did arrive on the shores of the U.S. with Ebola, 
though asymptomatic, so it is conceivable that there might be 
an additional case.
    Mr. Poe. Conceivable is different than there will be. The 
possibility is a different answer. Conceivable, to me, is 
different than an answer is there will be more Ebola cases in 
the United States.
    Let's assume he is correct about that. I personally think 
we need a visa ban.
    In all due respect, Ambassador, I don't believe in the 
philosophy that if we tighten the rules to get into the United 
States that with encourage people to come illegally. Then why 
have any rules for all of the countries in the whole world if 
that is going to occur?
    I was raised, I was taught by folks that, my grandmother, 
if you are sick don't get around healthy people. And if you are 
sick, don't let healthy people get around you. But be that as 
it may, it is assumed that Mr. Klain is correct. The United 
States' response to this, I think, is we should, for a 
temporary period, keep folks from the United States with a visa 
ban.
    Dr. Shah, let me ask you this. Are people who are being 
treated in Africa for Ebola, are any of them being brought to 
the United States?
    Mr. Shah. Not at this time. Part of the rationale for 
investing in and building out a 25-person world class hospital 
in Monrovia, called the Monrovia Medical Unit, and staffed by 
U.S. public health service personnel just recently completed 
and built by the Department of Defense is to have the capacity 
to provide world class care in west Africa. We have worked with 
the British to build a similar 12-bed unit in Kerry Town 
outside of Freetown.
    Mr. Poe. But are there any plans to bring folks to the 
United States that are being treated or may have Ebola in 
Africa? That is the question.
    Mr. Shah. Well, I think if medically indicated from that 
unit, if an American healthcare worker requires a special 
treatment----
    Mr. Poe. I am not talking about healthcare workers. I am 
talking about African citizens.
    Mr. Shah. No. Any special services are focused on 
healthcare workers powering the response.
    Mr. Poe. So the treatment is taking place in the African 
countries that are affected, and it is not a plan of the United 
States to bring those folks to treat them in the United States, 
except for workers from the United States, maybe the military?
    Mr. Shah. Exactly.
    Mr. Poe. Okay. I just wanted to make that clear as well.
    How many Americans are currently travelling from the United 
States to west Africa? Do we know that number? Not counting 
military and aid workers, humanitarian workers, but how many 
other folks are travelling? Do we have number of that, 
Ambassador Williams or Administrator Shah?
    Mr. Shah. We do. Maybe Ambassador Williams will add to 
this. I would just note that Secretary Johnson is responsible 
for those issues of travel and homeland, and so I don't want to 
speak on his behalf. I have heard him go through the numbers in 
a lot of detail. I just don't want to get them wrong as I 
repeat them to you.
    Mr. Poe. Ambassador Williams is raising her hand. You don't 
have to raise your hand in here to talk. I will recognize you 
anyway.
    Ambassador Williams. I don't have the numbers here. I know 
they are available. I don't have them with me so I can take the 
question. I am sorry.
    Mr. Poe. All right. Is anyone besides the military having a 
21-day quarantine when they return to the United States?
    Mr. Shah. The medical protocol is, depending on what 
category of risk you are upon return, you slot into a different 
protocol. So when I came back from my trip, I was on a 21-day 
active monitoring, which I cleared a few days ago.
    Mr. Poe. Thank you.
    Mr. Shah. So I was in daily contact with my Washington, DC, 
public health service person, but I was also not in the highest 
level of risk. Those who are are dealt with as required.
    Mr. Poe. All right. Thank all of you all.
    The Chair will recognize the ranking member of the 
Subcommittee on the Middle East and North Africa, 
Representative Deutch, from Florida.
    Mr. Deutch. Thank you, Mr. Chairman. And thanks to the 
distinguished committee for being here. Each of your agencies 
is playing a vital response to this crisis, and I would 
especially like to express our gratitude to the military 
personnel and the aid workers who are in west Africa assisting 
in this crisis.
    I wanted to circle back to the numbers. More than 14,000 
people have been infected. More than 5,000 have died. Now there 
are some reports, there were reports yesterday, the WHO said 
that they believe that in Guinea and Liberia, that there has 
been some, I think they said that there has been moderating of 
the number of infections, but they have also said, the WHO had 
said previously that the actual number of cases may be 
dramatically higher than currently reported. Our own CDC has 
said that the toll can be two to four times the WHO's numbers. 
There was an estimate earlier that there could be as many as 
5,000 to 10,000 new infections per week by December. Can you 
address where we are in terms of what the actual numbers are 
and what you anticipate they may spike to?
    Mr. Shah. Thank you. Thank you, first, for our comments 
about our military service personnel and the aid workers who 
are doing really extraordinary work. I would note, when I note 
that there are about 3,000 current active cases in the region, 
that that is a data point that as best we can accounts for 
potential underreporting of data. And it also tracks against 
the reality that over the last 8 weeks, we have seen a 
reduction in the number of new cases in Liberia, which had been 
the epicenter of the epidemic. The driver of that reduction has 
been kind of community-based efforts that have handled the 
management of deceased persons more effectively so that you 
don't transmit from dead bodies to others in that instance.
    Now, it is hard to estimate what future numbers could be or 
would be. Today, even in Liberia, we see as many as 20 small or 
micro epidemics throughout the country, and any one of them 
could become a cluster that then leads to exponential growth.
    Mr. Deutch. I am sorry, Administrator. I was going to ask 
about that, but since you brought it up, can you tell us what a 
micro epidemic is and how it might turn into a broader epidemic 
throughout the country?
    Mr. Shah. Sure. I was just on the phone yesterday with 
colleagues from Samaritan's Purse, and they were describing 
this. They go into a rural community where they think there 
might be a case or got a report, and they find that in seven or 
eight homes, people are housing patients that look like they 
have symptoms and are afraid to come out or are not seeking or 
reporting care or are not presenting at an Ebola treatment 
unit. And all of a sudden, that cluster of cases could quite 
quickly, because those patients are not isolated and they are 
getting symptoms like vomiting and diarrhea in a highly dense 
populated home environment, all of a sudden, you can have very 
rapid growth from that.
    And I would point out that back in the spring, this looked 
like a standard Ebola outbreak, and it, in fact, was burning 
out. I mean, we all thought it was going away as a problem 
because the numbers got so small, and then it just exploded in 
urban Monrovia. So we cannot say with confidence that despite 
the huge success we have had in the last 6 to 8 weeks at 
turning the tide in Liberia, that, in fact, we can be confident 
that we are not going to have an exponential outbreak in any of 
these settings in the first instance, which is why we are 
mounting a significant response through next year and why the 
emergency request provides the resources for that kind of a 
responsible, evidence-based response.
    Mr. Deutch. Do you know, can you estimate how many of these 
micro epidemics exist throughout the region?
    Mr. Shah. Well, these are just clusters of cases, so, you 
know, there are as many as 20 independent clusters of cases in 
parts of rural Liberia. I don't have the numbers off the top of 
my head, but I do know that the strategy developed is now to 
have really responsive systems that can go quickly stand up an 
Ebola treatment unit that is much smaller and more focused, 
probably less visible but highly important to rapid response.
    Mr. Deutch. And just, finally, before my time expires, 
there have been reports of an unrelated outbreak in Congo that 
has claimed at least 49 lives. Can you talk about that and your 
concerns about the possibility of that spreading?
    Mr. Shah. Well, in the DRC, we have seen actually cases 
being handled quite effectively, and they have managed that. In 
Mali, there is now a case--cases that have come we think from 
Guinea into Mali. And there is a significant cluster of cases 
there that now needs to be dealt with as of yesterday. I am not 
aware of 49 cases in the first, right now in the DRC, unless 
that happened this morning, and I would have to----
    Mr. Deutch. It is a report that I read this morning.
    Mr. Shah. We will look into that.
    Mr. Deutch. Thank you.
    Mr. Smith [presiding]. The Chair recognizes the gentleman 
from Florida, Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    I appreciate you all being here. Let's see. I think you 
just answered the question I had, Dr. Shah, about the number of 
outbreaks or the number of cases. Are they increasing or 
decreasing, in the last 6 to 8 weeks?
    Mr. Shah. In Liberia, the number of new cases are 
decreasing, but the number--and in Sierra Leone and Guinea, 
they are increasing quite significantly.
    Mr. Yoho. All right. So we are seeing focal outbreaks?
    Mr. Shah. I am sorry?
    Mr. Yoho. Focal outbreaks, we are seeing, small outbreaks?
    Mr. Shah. Yeah.
    Mr. Yoho. What is the expected cost in the next year to 
treat and contain if things stay pretty static the way they are 
or, you know, the predicted growth of this, what would you 
predict that cost would be?
    Mr. Shah. Well, the $6.2 billion request includes 
approximately $2 billion or so for the response in west Africa 
against the main element of the strategy, which is controlling 
the outbreak, and that will provide funding for personnel that 
need to be trained and deployed. It will provide funding for 
Ebola treatment units and community care centers, the logistics 
required to do that. And it will provide funding for the huge 
amount of product supply, personal protective equipment, oral 
rehydration solution, intravenous materials, to provide a 
large-scale response throughout that region.
    Mr. Yoho. Okay. I am a veterinarian by background, and we 
deal with outbreaks all the time in animals. And we have got 
some commonsense things we do. And what I see is there is the 
fear factor from the Ebola outbreak, the tide of fear. And I 
know the news spreads this, and there is a lot of 
misconceptions by people without a medical background that 
think this is Al Pacino in that move with the virus coming out. 
And it is, it is a deadly virus, but yet it is a virus. We have 
got hundreds of years of virus, how to deal with these things 
and how to quarantine them.
    And Dr. West, you being a medical doctor also, the response 
that we are doing, the commonsense thing to me is when you have 
an outbreak, you have short-term things you do and you have 
long-term things that we should do. The short-term is the 
diagnostic, the treatment, the quarantine that we would do in 
an animal population. And we should do those same things in 
this, like travel restrictions. I think that is totally--should 
be acceptable. It shouldn't be a political thing, and I would 
just like to hear your thoughts on travel restrictions.
    I know the Army is doing a great job on that. We know the 
incubation is 3 to 21 days. But, unfortunately, viruses don't 
read the manual. I think they ought to extend that to 30 days 
just to be safe and do testing, you know, whether it is an 
ELISA test or an SN test or a PCR test, to do that. And I would 
like to hear your thoughts on that for the short-term attack on 
this virus.
    General West. Sir, thank you for the question. As far as 
travel restrictions, I really can't comment specifically on 
that. I do concur with your thoughts on how to best tackle it 
as far as preventative measures once you recognize it to 
rapidly diagnose and treat; and then, long term, you know, put 
in measures to prevent, bolster the public health system so if 
there is another outbreak or similar, it can be identified 
early and then those treatment and isolation recommendations 
can be done early on.
    Mr. Yoho. Okay. What I have seen here is we have got five 
hospital areas in the United States. I think we ought to have 
one hospital that is a quarantine area or treatment area 
instead of spreading it throughout the country. Just, again, 
from an epidemiological standpoint, it would make more sense to 
contain it in a smaller area. I know you are doing that in 
Africa.
    And on the long-term strategy--and this goes back to Dr. 
Shah, and I would like to get your opinion, too, Doctor. We 
have known about this virus since the 1970s. And we had the 
Marburg virus that broke out in Germany. It was rapidly 
contained. It is a relative of the Ebola virus in the same 
viral family. Yet we contained it very early because of the 
testing. And we have got vaccines that are on the shelves that 
have been approved--or they have been shown effective. They 
have not been approved--for over 10 years. Why have we not 
followed up since the role of our Government is to be prepared 
for the next epidemic or the pandemic, to be prepared with 
these vaccines. The money that we are spending in the research 
and development, why has that vaccine not been approved and 
ready to go so that when we diagnose and treat the individual 
and we do the quarantine, we can be vaccinating a population 
that is susceptible? Why has that not happened?
    Mr. Shah. Well, Congressman, actually, the resources in the 
emergency request will actually allow----
    Mr. Yoho. No. I want to know why it hasn't happened because 
we have known about this since 1970. This is not a new virus. 
This is something we should have been prepared for as a 
government, and we have dumped billions of dollars into 
research and development. Why have we not done that?
    Mr. Shah. Well, let me just describe one thing that is very 
specific to west Africa and the vaccines. The committee has 
supported the USAID to create something called the Global 
Development Lab. And through that, we have worked with Dr. 
Fauci at NIH and are accelerating the introduction of the 
vaccine in Liberia for rapid clinical phase II and III testing. 
That I believe is the Canadian vaccine.
    Mr. Yoho. We are starting at a point today. I mean, the 
horse is already out of the barn, and we have known the horse 
is out. We should have been prepared for this, and I look at 
your organization as something that should be ready, not just 
for this one but for the next one, too. That is foresight. That 
is oversight. We are doing hindsight. I know you guys will get 
control of this, and I look forward to helping you and 
assisting you on this.
    And with that, I am out of time, and I yield back.
    Mr. Smith. Thank you.
    The Chair recognizes Mr. Higgins, the gentleman from New 
York.
    Mr. Higgins. Thank you, Mr. Chairman.
    For Administrator Shah, the USAID coordinates the 
international response with the Department of Defense and 
State. And the United States is the principal responder in 
Liberia. It was stated at the outset of this hearing by the 
chairman that the objective is breaking the chain of 
transmission. You can't do that without fundamentally dealing 
with the problems in the countries of origin, that being the 
inadequate hygiene and sanitation systems and also the lack of 
or the poor healthcare infrastructure. So specific to USAID in 
Liberia, what is being done specifically to address those 
issues, and is there a time frame within which those projects 
would be undertaken and completed?
    Mr. Shah. Thank you, Congressman.
    I think really there are two ways to address that. One is 
in the context of our ongoing longer-term developmental 
investments in Liberia in particular, we have been working to 
build out their health system to improve access to water 
sanitation and hygiene and to, frankly, get a lot of kids in 
school. This is a country where 58 percent of the population 
lives on a dollar and a quarter per day; 80 percent of total 
disposable income per person is spent on food. So when food 
prices go up, as they have almost doubled, you see children and 
women in particular going without enough adequate nutrition. We 
have been working on those issues and will continue to.
    In the context of this response, I believe that some of the 
rapid reduction in transmission we have seen in Liberia has 
come from those types of community interventions. The fact 
that, even when I was there, you wash your hands with 
chlorinated water before going into any building. People have 
stopped shaking hands and touching each other. The more that 
those behavioral practices become the new norm in rural 
communities, the safer those communities will be from this 
outbreak, and, frankly, over the long-term, the more you will 
see a reduction in very deadly diarrheal disease that still, 
unfortunately, kill a lot of children who don't need to die in 
these types of countries.
    Mr. Higgins. Like any health crisis, this one exacts an 
economic price on these communities as well. All three of these 
countries, Liberia, Sierra Leone, and Guinea, were projected to 
grow pretty impressively. According to the World Bank, because 
of this crisis, the economic decline in those countries will go 
from anywhere between 3 percent to 12 percent. Does this 
undermine the ability of those countries themselves to make 
investments toward alleviating this problem?
    Mr. Shah. Absolutely. In fact, I think even the World Bank 
now believes that those initial 3 to 12 percent estimates are 
underestimates of the true consequence. The public budgets will 
be down anywhere from 20 to 40 percent. The economic activity 
will most likely contract by as much as a third. I had a chance 
to meet with business leaders in each of the three countries 
who described not being able to continue to employ their 
personnel and their staff and having largely ceased operations. 
Expatriate staff have often left the country. So it is a very 
difficult economic situation that will greatly compound our 
efforts over the course of the next year to get the epidemic 
under control.
    Mr. Higgins. Final question. Infectious diseases 
notoriously are unpredictable, meaning that the virus entering 
one person may be genetically different from the virus entering 
another person. We have been told repeatedly that you can only 
get Ebola through direct contact with bodily fluids. Could the 
Ebola virus mutate to become transmissible through the air?
    Mr. Shah. Well, I think it is hard to say no to an event 
that is a potential event with a low likelihood of happening, 
but most of the experts we have consulted, and Dr. Fauci and 
others who have offered their guidance on this, suggest we have 
to watch for what the genetic mutations are, but that it is 
unlikely that this will become airborne in the short term. 
There are a very high number of mutation events because we have 
never before seen so much transmission of this particular 
virus, and so we don't make any commitments on that.
    Mr. Higgins. It would seem to me that that is something 
that public health officials should be looking at very closely 
because a lot of this originated from rural areas. Now we are 
in cities where contact is much more prevalent, and the spread 
and the change in mutations is much more likely.
    So I yield back. Thank you.
    Mr. Smith. Thank you, Mr. Higgins.
    Before yielding to Mr. Meadows, I want to thank Mr. 
Meadows. Meeting in the anteroom just a moment ago was the 
Foreign Minister of Sudan, Ali Ahmed Karti and Mr. Meadows led 
the effort that led to the release of Meriam Ibrahim, and I 
want to publicly thank him again for that extraordinary 
leadership. Hopefully, a dialogue will ensue with the Sudanese 
on religious freedom issues.
    Thank you, Mr. Meadows.
    The Chair recognizes, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, for your kind words 
and certainly thank you for your efforts in leading on not only 
that particular issue but a number of humanitarian issues.
    And so I thank each one of you for your testimony here 
today.
    Dr. Shah, let me go to you. I know we have requested a lot 
of money. You feel like the plan that we have in place is a 
good one, and so I want to direct our attention and focus in on 
the ETU units and the diagnostic units because right now, it is 
my understanding there is only two diagnostic units that are 
put in the same proximity with the treatment units. And what we 
are seeing is a great delay with regards to the diagnostic side 
of things as they get to put in the warm units. Are we making a 
change to that? Will we be putting those diagnostic units along 
with the ETU units?
    Mr. Shah. Thank you. I would just highlight three things. 
One is, on ETUs, we have, in fact, already scaled up the 
capacity of ETUs in all three countries.
    Mr. Meadows. Yeah. I am talking about specifically 
diagnostics, not ETUs.
    Mr. Shah. Yeah. I think the labs--I think we have put in 
place now nine additional labs across the three countries in a 
certain amount of time. I think four or five are from DoD, and 
they have made a huge difference.
    Mr. Meadows. I understand that. My question specifically is 
why are we not co-placing those along the ETU units? Because 
what you have is you have people----
    Mr. Shah. You transport issues.
    Mr. Meadows. You have transport. You have got delays in 
terms of the diagnostics. You put them in warm zones. They 
could be with other infected patients. You have got just this 
whole laborious process. And we, with the most sophisticated 
healthcare system in the world, have found logistical problems 
with just a few patients here. Why would we not put the 
diagnostic units along with the ETU units, so we don't have the 
cross contamination probabilities?
    Mr. Shah. I think the real answer is we want to do that as 
much as possible. There are some constraints, and there is a 
conversation right now about how do we project out that lab 
capability.
    Mr. Meadows. So what would be those constraints? You have 
only got 2 of the 20 right now where they are co-located 
together in Liberia.
    Mr. Shah. Right. So, for example, in Monrovia if you can 
get from site to site pretty quickly, you may not need to stand 
up labs at every one of the ETUs. And what might be the 
priority is getting more lab capacity that can project into 
rural communities and elsewhere.
    Mr. Meadows. That doesn't make logistical sense. In your 
testimony just a few minutes ago you talked about malaria and 
how we have these potentials. So you have potentially a malaria 
patient who is coming into an area with other infected Ebola 
patients, who could be contracting Ebola, and yet time is not 
our friend here. So why would you not have the diagnostic units 
along with the ETU units?
    Mr. Shah. I think we want to have that as much as possible. 
I will have the team figure out----
    Mr. Meadows. So you haven't addressed that?
    Mr. Shah. Well, we have. We have actually--we are looking 
both at a whole range of----
    Mr. Meadows. Mr. Lumpkin, let me shift to you. You are 
building these units. Are you building diagnostic units along 
with the ETU units?
    Mr. Lumpkin. At this juncture, there is more----
    Mr. Meadows. Yes or no?
    Mr. Lumpkin. I think it is more complex than that. You hit 
the nail on the head when you said it is a logistics challenge 
when you work this. So when you have more ETUs than you have 
diagnostic capabilities, sometimes it is better from a 
logistics perspective to centrally locate a diagnostic 
capability----
    Mr. Meadows. And so it is better to wait 3 or 4 days----
    Mr. Lumpkin. No, no, no----
    Mr. Meadows [continuing]. For the diagnostics, because that 
is what is happening. That is the intel that we are getting. 
They are having to wait 3 or 4 days to figure out whether they 
have got it and then travel a long distance to get there. So 
why would that be a logistical problem? If you are building 
these units, why would you not put the diagnostics along with 
the treatment unit?
    Mr. Lumpkin. Because it takes longer to get a diagnostic 
capability in country to have a robust laboratory capability 
than it does to get an ETU running. To get it configured, 
trained and everybody in, it takes time.
    Mr. Meadows. So what you are saying is we are not going to 
collocate these.
    Mr. Lumpkin. That isn't what I am saying at all. I am 
saying, from my experience on the ground, the goal is always to 
get them as close as possible. But if you can't get one at each 
one, if there are two ETUs that are 15 miles away, if you can 
get it in the middle, you do, in order to make that limited 
resource of these diagnostic capabilities go as far as 
possible.
    Mr. Meadows. So do you concur that is the best plan, Dr. 
Shah?
    Mr. Shah. I think the best plan is to have as much 
laboratory capability as possible.
    Mr. Meadows. Well, we are asking for $7 billion here, and 
diagnostics--that that component of it is a very minute 
component of that. And so if you are asking for $7 billion, why 
could you not collocate?
    Mr. Shah. We will--I will get back to you with a more 
specific answer about going forward, but right now, we have 
three that are collocated, one in Lofa County, one in Bong 
County, and one in Monrovia, and those collocations----
    Mr. Meadows. Out of how many treatment units?
    Mr. Shah. That are operational? I think seven are 
operational in that area right now.
    Mr. Meadows. Well, I show 20 ETU units in Liberia. Is that 
not correct?
    Mr. Shah. They are not operational. You have seven 
operational ETUs.
    Mr. Meadows. So we have seven operational, three that are 
collocated----
    Mr. Shah. Three----
    Mr. Meadows. But when the others come on line, they will--
--
    Mr. Shah. Our goal will be to get as much lab capacity 
projected, and we have a synchronization matrix. I will have 
the team go through and identify how many will have 
collocated----
    Mr. Meadows. Okay, I am out of time, but I would ask you to 
get back to this committee on why we can't do that.
    Mr. Shah. It is an excellent point. Both the assistant 
secretary and I agree with the basic point.
    Mr. Meadows. All right. Thank you.
    I yield back. Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Meadows.
    I know Ambassador Williams has to depart at noon for a 
flight. Thank you for your leadership and your participation 
today.
    Ambassador Williams. Thank you, Mr. Chairman, I appreciate 
that.
    Mr. Smith. I would like to now recognize the ranking member 
of the Africa, Global Health, Global Human Rights, and 
International Organizations Subcommittee, a woman with whom I 
work very closely with and am very proud to do so, Ms. Bass of 
California.
    Ms. Bass. Thank you. Thank you very much, Mr. Chairman.
    I have several questions, most of them are unrelated, but I 
am just going to go through a little list. For Dr. Shah, you 
were mentioning changes in protective gear, and I was just 
wondering if we have been able to improve the temperature 
monitor. You know, I know that scan is not that accurate, and 
so I am wondering if there is any improvements to that.
    I also wanted to ask, I know that UNICEF has reported that 
there are nearly 4,000 orphaned children, and I was just 
wondering if you could give us, anybody on the panel could give 
us a status report as to what is happening with the children, 
and then one of the--part of the consequences of the epidemic 
has been an impact on the economy, which my colleague was 
mentioning, and I wanted to ask specifically about the cocoa 
industry in Cote d'Ivoire that hasn't even been hit by Ebola, 
but yet it has been impacted severely. So maybe various 
panelists could answer this question, whoever would like to.
    Mr. Shah. Let me try. On the protective equipment, one of 
the things we have done through our global development lab is a 
grand challenge on Ebola, and we have seen more than 1,200 
proposals come in, including I think more than 50 percent of 
proposals are for improved protective equipment, so, in the 
next 2 days, they are actually assessing the top 25 proposals. 
This has been a real focus for the President, and Motorola has 
been working with us on a temperature monitor for the suits, 
and as you point out, we are also working on cooling systems 
for the suits, breathability, and improved infection control.
    Ms. Bass. That is great. Actually, I wasn't thinking about 
that. I was thinking about that handheld scan.
    Mr. Shah. Oh, the handheld scanner, yes.
    Ms. Bass. That you have testified and other people have 
previously that it is not that great.
    Mr. Shah. Yeah, they are a little low I think. We are 
looking into that. And there are, I think, a series of existing 
products that are better than what they are using in west 
Africa now that we will be able to help support and deploy.
    On orphanages, we have and are conducting a review. In 
particular, when I was in Liberia, I visited an orphanage, and 
not just the increase in the numbers, but also the lack of 
access to food, which has been the main constraint for those 
orphanages, so we are expanding the Food for Peace investment 
as part of this effort going forward and starting with looking 
at vulnerable populations, including orphans, to make sure they 
have enough food.
    And on cocoa and the industry, it is true across the board, 
you know, shipping costs have gone through the roof. You have 
seen a 70-percent reduction in commercial flights to the 
region. Transportation is much, much, much more difficult, so 
any business, local or export oriented, is facing really severe 
challenges, which is why we are launching a major regional Feed 
the Future effort to get these industries operational again, 
and it is one of the reasons we seek the Congress' support for 
the Feed the Future authorizing legislation to really allow 
this to be successful.
    Ms. Bass. I think it is important that we talk about that 
because it might be, Mr. Chairman and Mr. Ranking Member, it 
might be something that we could really try to expedite during 
the lame duck. I was going to ask you about the transfer 
authority and how soon you needed that to happen. If those are 
priorities, maybe we could get them done.
    Mr. Shah. I know we would appreciate the transfer authority 
as soon as possible. This is a very fast moving epidemic, and 
just as we note, I think we are every day learning more about 
which communities need what type of support. And it is not just 
immediate disease control but also dealing with these secondary 
consequences of the epidemic to avoid kind of state collapse 
and fragility from becoming the defining reality of all three 
places.
    Ms. Bass. You know, I spoke a couple of weeks ago with the 
President of Liberia, and she took major issue with the numbers 
that are projected, and I was wondering if you had anything to 
say about that. The other thing that she raised was that they 
had just celebrated, and this was 2 or 3 weeks ago, they had 
just celebrated the 1,000th person in Liberia who survived. We 
are not really talking about that; we are only talking about 
the death rates. But what about the survival rates in 
countries, in particular, in Liberia?
    Mr. Shah. Well, I have spoken with President Sirleaf a lot 
as well, and she makes the point, and I fully agree, that we 
should be reporting current active cases and investing in real 
time data systems, which we are doing, to get better 
information about how many active cases are there. What you 
read in the press when they say 14,000 cases includes people 
who have died, unfortunately. It also includes people who have 
survived, and then that number doesn't really give you a sense 
of where is the immediate crisis because it is this big 
aggregated number over time and geography. So we have a team 
that we sent a whole team of epidemiologists from Johns 
Hopkins, from CDC, and we have a group going to help give first 
responders the right handheld devices to collect immediate data 
and reflect it in real time, and President Sirleaf I think 
values the fact that we want to stay focused on real data and 
information as opposed to modeled predictions that might or 
might not send the right message to folks.
    Ms. Bass. In closing, if you could give us some better 
numbers, it would be great, especially to disaggregate the 
14,000 would be great. Thank you.
    Mr. Smith. Thank you, Ms. Bass.
    The Chair recognizes Mr. Clawson, the gentleman from 
Florida.
    Mr. Clawson. Okay. When I review you all's bios and 
accomplishments, I am very impressed with what you have done 
for our country, not just now, but leading up until now, and 
you could have done a lot of other things with these kind of 
capabilities, made a little bit more money, but you chose to 
serve our country, and I want to express to you deep 
appreciation for that.
    I also think that helping people is never--nonpartisan, and 
so I am here to help, and I heard your earlier question, I 
heard I think it was Representative Sherman earlier say, ask if 
you got everything you need, and I heard the answer being yes, 
so I look at the group sitting in front of me and that answer, 
and I feel a little bit better, but anything that I can do or 
that we can do to help because we are always interested in 
doing so.
    I do have a couple questions that you all can help me with. 
Number one is when I look at the other countries in the region 
in Western Africa, it seems to me, if we back up a step, that 
this is a disease that preys on lack of health infrastructure 
and also particularly dangerous if there is an urban area where 
people are living close to each other. If you look at kind of 
when we looked at doctors per, you know, 100,000 residents or 
inhabitants in the other countries--Senegal, Mali, these kind 
of places, Ivory Coast--it is not a lot better than where we 
have an outbreak now. So am I drawing a correct conclusion in 
saying we have similar circumstances in neighboring countries 
that could lead to a crisis? And then secondarily to that, do 
we have enough of a firewall, or are we close to more disasters 
coming here?
    Mr. Shah. Well, first, Congressman, let me thank you for 
your initial comments and also point out that in my response to 
Representative Sherman, I did not intend to indicate that we 
have what we need. We desperately need these emergency funding 
resources. My team is very focused on the fact that we will 
literally be shutting down famine prevention programs in places 
like South Sudan if we don't get these resources.
    Mr. Clawson. Okay.
    Mr. Shah. Because we have overspent aggressively and 
quickly because of the nature of the epidemic and to keep it 
from getting to be in an exponential phase in order to power 
this response. We also do seek the authorities and support for 
the food reform package, including Feed the Future 
authorization.
    In terms of the global health security, I would just note I 
think you are exactly right that the neighboring countries have 
weak and fragile health systems. Where they have been 
successful, like Nigeria, it has been in part because of great 
leadership there and also strong support from CDC and others 
that have helped them do an extraordinary amount of contact 
tracing fast. But we are looking right now at cases in Mali.
    You can't really build firewalls. I was in Senegal, and 
they said, well, we are cutting off the border with Guinea. All 
that really does is people cross the border and then don't get 
traced and are not part of a system where you can identify who 
is crossing and what their temperature is and are they at risk, 
and they get lost in the population. So it is very hard to 
build a firewall in west Africa across west African countries.
    Mr. Clawson. So should we have more resources going into 
these neighboring countries?
    Mr. Shah. Absolutely. And this emergency request includes 
resources for a set of activities we call global health 
security, where we have worked together with 43 other 
countries, including other countries that will provide funding, 
so we can co-invest in building global health security in the 
region, and it is important that we do that now to protect 
ourselves for the long term.
    Mr. Lumpkin. If I may add just one piece about the 
resourcing and having what we need to do, the business we need 
to do here and eradicate Ebola is that the defense committees 
were very kind to us in the end of Fiscal Year 2014 that 
allowed us to do a reprogramming within the Department of 
Defense of unobligated Overseas Contingency Operations funds of 
$1 billion, so we could put against this requirement in order 
to make sure we are fully supporting USAID. So the Congress has 
been very generous. This has allowed us to get where we are 
today and to continue our support over the coming months.
    Mr. Clawson. One more question relative to support. Are our 
allies doing enough, and does the U.N. give quotas to folks in 
Europe? I mean, I know we are asking, but if you look at where 
the money comes from, it seems like most of it comes from us, 
and are specific requests made to our allies that have historic 
relationships in Africa?
    Mr. Shah. Yes, and those requests have been made by 
President Obama directly with counterpart heads of state. They 
have been made by Secretary Kerry, by Secretary Burwell, I have 
called my counterparts regularly, and the result of that is we 
have seen now $800 million committed from a range of other 
donors, and we welcome that, and we are tracking to make sure 
that it actually arrives and it is not just a verbal 
commitment.
    In terms of the U.N., the UNMEER mission is assessed based 
on contribution percentages, so it is an allocation, and the 
standard U.N. percentages will apply to the cost of that 
mission.
    Mr. Clawson. Thank you.
    Yield back.
    Mr. Smith. Mr. Clawson, thank you very much.
    The Chair recognizes Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    And thank you to the witnesses for your expertise and for 
sharing your experiences with the committee today. I think it 
is very important that you have established clearly that the 
United States has a national security interest and a 
humanitarian responsibility to respond to this outbreak and 
that the best way to respond to this, the best way to protect 
against Ebola here within our own borders is of course to work 
with our international partners to help save lives, strengthen 
the economies of our trading partners, maintain political 
stability in these countries and stop Ebola at its source, and 
I thank all of you for the work that you are doing and the 
agencies you represent.
    I also want to just take a moment to acknowledge the 
extraordinary contributions of our local and international 
health workers and military personnel who have really helped to 
combat this outbreak. Experts have stated that the greatest 
barrier to ending the outbreak in west Africa is an 
insufficient number of health workers. And today I will 
introduce a resolution along with my colleague Congresswoman 
Bass expressing a sense of Congress that health workers 
responding to the Ebola crisis deserve our profound gratitude 
and deep respect. And I just want to say that here at this 
hearing.
    Dr. Shah, I want to just start with you. I want to build a 
little bit on Mr. Clawson's question, but rather than building 
a firewall, I about a year ago with Mr. Kinzinger visited 
Liberia and was struck by the lack of a healthcare system 
infrastructure and can only imagine what the impact is on 
combating this outbreak with that kind of a frail, very fragile 
healthcare system. So as you think about this global health 
security, do we--is the United States really helping to lead 
kind of a comprehensive plan to kind of assist countries in 
developing this capacity after this epidemic is concluded, 
recognizing that is a huge undertaking, but, you know, are 
there some strategies that we should be looking for to invest 
in that will help build the capacity not only in the three 
affected countries but in the region and countries that are 
particularly vulnerable to an outbreak of an infectious 
disease?
    Mr. Shah. Well, thank you, Congressman, and thank you for 
your resolution in particular. That has special meaning for our 
folks on the ground and our partners, and we really want to say 
thank you for your leadership.
    In terms of global health security over time, President 
Obama actually started this effort as an international 
partnership before the Ebola outbreak, and frankly, before the 
outbreak, President Sirleaf had a very coherent plan for 
training, hiring, and deploying a few thousand community health 
workers, building out laboratory capacity, improving the 
physical infrastructure of the more than 460 primary care 
facilities throughout the country, many of which we have helped 
build over the years and stock and supply, and so this has been 
devastating to the system initially because of all of those 
initial healthcare worker infections and people no longer 
coming to work and the consequence of that.
    But we do have clear plans in country for what it means to 
build health system security. It builds off the baseline of our 
global health investments that have helped to build out this 
infrastructure. And one of the elements that was not considered 
before, because it was pre-Ebola, that will now be considered 
is how we make sure we get protective equipment and training to 
all of those primary healthcare workers that, you know, 
previously wouldn't have been thinking about Ebola but now need 
to make sure they can protect themselves in a setting like 
that.
    The last thing I would say about this is we have worked 
with 43 other countries. At the end of September, there was a 
meeting at the White House. Those countries came and made 
pledges and commitments, so this will take a while to build 
into the system but is I think particularly important given the 
crisis that we are dealing with right now.
    Mr. Cicilline. So one of the other things I wanted to 
follow up on is the number of young children that are being 
orphaned as a result of this outbreak and whether we are 
developing strategies to help deal with this real crisis in 
terms of psychological services, placement, et cetera, 
particularly in Liberia.
    Mr. Shah. Uh-huh. Yes, we absolutely will. This emergency 
funding request and the transfer authority will give us the 
capability to deal with this crisis at scale, and, you know, it 
is a devastating reality. I have seen children who are unable 
to communicate or be with their mother because she is infected 
and in a treatment unit, and they are separated, so it is a 
tragic reality of this epidemic, and these resources will help 
us address that.
    Mr. Cicilline. Thank you.
    Mr. Lumpkin, I just have one question. It appears that the 
Department of Defense has a policy in place now for a 21-day 
quarantine, regardless of the risk because these are 
individuals who are not having direct contact with patients. 
That protocol seems to be at odds or at least not the same 
protocol as the CDC. So is that correct? And why is the 
Department of Defense doing a quarantine for people that may 
not be at any risk and certainly are, some of them, not even 
having direct contact with patients? It seems an odd practice 
that is quite different from the CDC protocol, and I would love 
Dr. Shah and Mr. Lumpkin both to respond to that if you would.
    Mr. Lumpkin. Well, Secretary Hagel approved the 21-day 
controlled monitoring program that you just discussed at the 
recommendation of the chairman of the Joint Chiefs of Staff as 
well as the service chiefs--senior leadership in uniform, and 
it was done for operational reasons based on how we reinnervate 
our force, and I will let Major General Lariviere kind of go 
over the guiding principles with, as far as the service chiefs 
and the chairman.
    General Lariviere. Thank you, sir. And, again, it was an 
operational decision, not a medical decision, and I will let 
General West talk about the medical advice that was given to 
the chairman which was very similar to the CDC guidance, but 
because we have got a young and large population, youngest and 
largest responding to this epidemic, the chairman felt because 
of the unique role and responsibility of the military and the 
scale of deployment and the responsibility he has for the 
personnel and for the families that this was a prudent measure 
to take, again based on the recommendation of the Joint Chiefs, 
recognizing that it is not--it is more conservative than the 
CDC guidelines.
    Mr. Shah. I would just add for USAID employees and staff 
and partners, you know, we are following the CDC guidelines 
that do involve direct active monitoring for people that come 
back from the region and more extensive measures if there is a 
specific exposure per the guidelines.
    Mr. Cicilline. Thank you.
    I thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you.
    Mr. Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman, ranking member for 
having this important hearing. I want to thank our witnesses, 
not only their own personal involvement but on behalf of their 
agencies for the fine work they have done and how important it 
is worldwide and for our country here.
    One of the most concerning reports of the impact of the 
outbreak in the region is the marginalization of members of 
vulnerable populations, including the LGBT community. In the 
Liberian capital of Monrovia, for example, we have heard 
numerous incidents of harassment, physical altercation, direct 
targeting of individuals based on their sexual orientation 
after some religious leaders claimed the outbreak was a 
punishment from God. This not only affects these vulnerable 
populations but also our overall ability to control and stem 
this outbreak.
    How are USAID and the State Department working to ensure 
that the LGBT community is receiving unobstructed care and how 
are your agencies working to protect all vulnerable groups from 
discrimination based on gender, disability or sexual 
orientation?
    And I guess, Administrator Shah, you could respond to that 
first I guess.
    Mr. Shah. Well, thank you for the question. It is an 
important issue in particular because of, as you identify in a 
context of fear and lack of information, prejudices can often 
become defining of behavior, and so, for that purpose and 
because it is central to the epidemic response, we have had a 
widespread public messaging campaign throughout all three 
countries to communicate Ebola is real, how you get it, what it 
is not, and to avoid those concerns. In addition, our Disaster 
Assistance Response Team has a special focus on integrating 
protection concerns for vulnerable populations, including LGBT 
populations into the grants and programs they are pursuing 
because this is such an important issue, and it will continue 
to be our policy, especially with respect to how the services 
are provided, that everyone has equal access to be a 
beneficiary of our programs and that this response is driven by 
science and evidence and not prejudice and fear.
    Mr. Keating. Great.
    Do any of the other witnesses want to comment on that? No?
    With that, Mr. Chairman, I will yield back my time, and 
again thank the chair, ranking member, and the members of the 
committee and our witnesses for their time.
    Mr. Smith. Thank you very much to our very distinguished 
witnesses for your leadership, for providing insight and 
counsel to the committee. We all, on both sides of the aisle, 
deeply appreciate it and look forward to working with you going 
forward.
    The hearing is adjourned.
    [Whereupon, at 12:24 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
